Report No. D-2011-106               September 22, 2011




      The Department of the Navy Spent Recovery Act
           Funds on Photovoltaic Projects That
                 Were Not Cost-Effective
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ASN(EI&E)                      Assistant Secretary of the Navy for Energy, Installations,
                                  and Environment
CNIC                           Commander, Navy Installations Command
CNO                            Chief of Naval Operations
CSI                            California Solar Initiative
DC(I&L)                        Deputy Commandant (Installations and Logistics)
ECIP                           Energy Conservation Investment Program
e-ROI                          Energy Return on Investment
FSRM                           Facilities, Sustainment, Restoration, and Modernization
LCCA                           Life-Cycle Cost Analysis
NAVFAC                         Naval Facilities Engineering Command
NFESC                          Naval Facilities Engineering Service Center
MILCON                         Military Construction
O&M                            Operations and Maintenance
PV                             Photovoltaic
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202--4704

                                                                                   SEP 22 2011
MEMORANDUM FOR CHIEF OF NAVAL OPERAnONS
               COMMANDANT, U.S . MARINE CORPS
               PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)
               ASSISTANT SECRETARY OF THE NAVY FOR ENERGY,
                 INSTALLAnONS , AND ENVIRONMENT
               DEPUTY UNDER SECRETARY OF DEFENSE
                 (INSTALLATIONS AND ENVIRONMENT)
               NAVAL INSPECTOR GENERAL

SUBJECT: The Department of the Navy Spent Recovery Act Funds on Photovoltaic
         Projects That Were Not Cost-Effective (Report No. D-2011-106)

We are providing this report for review and comment. We performed this audit in
response to the requirements of Public Law 111-5 , "American Recovery and
Reinvestment Act of2009" (Recovery Act), February 17, 2009. We considered
management comments on a draft of this report in preparing the final report. We
determined that the Department of the Navy did not select and plan photovoltaic projects
in accordance with the Recovery Act and applicable energy legislation and policies. As a
result, the Navy will not recover $25.1 million ofthe $50.8 million invested in
photovoltaic projects.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Department of the Navy comments in response to Recommendations 1,3, and 6 were not
responsive. We request additional comments on these recommendations by
October 24, 2011. We also request comments on revised Recommendations 5 and 7.
Please see the recommendations table on page ii.

If possible, send a .pdf file containing your comments to audros@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the ISignedi symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).


                                             j) II   -    Me      I   , . -'""'_
                                           UJl-Lu...-~ \..A/U/V (J
                                             Ali ce F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations', and Support
Report No. D-2011-106 (Project No. D2010-D000LH-0081.000)                                     September 22, 2011


                 Results in Brief: The Department of the Navy
                 Spent Recovery Act Funds on Photovoltaic
                 Projects That Were Not Cost-Effective
What We Did                                                    strategies and policies, and implementing a new project
                                                               selection tool. Our recommendations should
We determined whether the Department of the Navy               complement these improvements and enable officials to
planned and selected 3 American Recovery and                   invest in cost-effective projects.
Reinvestment Act (Recovery Act) photovoltaic (PV)
projects at 12 Navy and Marine Corps sites in
accordance with the Recovery Act and applicable                What We Recommend
energy legislation and policies. The contract costs for        We make several recommendations for the Navy and
these three projects totaled $62.3 million.                    Marine Corps to develop energy strategies and
                                                               comprehensive policies for planning and selecting cost-
What We Found                                                  effective energy projects. We also recommend that the
                                                               Department of Defense, Department of the Navy, the
Navy and Marine Corps officials did not select and             Navy, and the Marine Corps officials review the actions
plan cost-effective PV projects in accordance with the         of officials responsible for planning and selecting PV
Recovery Act and applicable energy legislation and             projects that were not cost-effective, which resulted in
policies. During project planning and selection,               Recovery Act funds not recovered. Based on that
officials did not consider whether projects were cost-         review, determine whether any administrative actions
effective or analyze different types of energy projects        are necessary.
to determine the best investments for meeting
legislative energy goals. Instead, they relied upon
project titles, location, cost, and amount of time to          Management Comments and
award contracts to select projects.                            Our Response
                                                               Regarding the development of energy strategies and
Officials incorrectly concluded that cost effectiveness        policies, the Marine Corps’ comments were
was not required for planning Recovery Act energy              responsive, but the Department of the Navy and the
projects. Energy legislation and policies required the         Navy’s comments did not describe actions to
projects to be cost-effective, and the Recovery Act did        implement a shore energy strategy and
not waive these requirements; rather, it required              comprehensive policy for planning and selecting
agencies to spend funds “consistent with prudent               energy projects within the Navy. Further, comments
management.”                                                   regarding the Navy’s project selection tool were not
                                                               responsive because non-financial factors are weighted
Officials also were not well equipped to handle quick          higher than cost-effectiveness. In addition, officials
timelines for planning and selecting projects because,         disagreed with conducting administrative reviews,
at the time of the Recovery Act’s implementation, the          which we believe are necessary to improve the
Navy and Marine Corps did not have processes for               integrity of the energy program’s control
completing life-cycle cost analyses, processes for             environment. As a result of management comments,
planning and selecting all energy projects, or energy          we revised draft Recommendation 5 to consider the
strategies for achieving legislative goals. As a result,       additional costs necessary to obtain California Solar
the Department of the Navy will not recover                    Initiative rebates. We also revised and redirected
$25.1 million of the $50.8 million invested in PV              Recommendation 7 regarding administrative reviews.
projects.                                                      We request that the parties referenced in the
                                                               recommendations table on the back of this page
The Department of the Navy has taken steps to improve          provide comments by October 24, 2011.
its energy programs by restructuring existing offices
and establishing new energy offices, developing

                                                           i
Report No. D-2011-106 (Project No. D2010-D000LH-0081.000)             September 22, 2011

Recommendations Table
         Management                       Recommendations    No Additional Comments
                                         Requiring Comment          Required
Principal Deputy Under Secretary    7.
of Defense (Comptroller)
Deputy Under Secretary of           7.
Defense (Installations and
Environment)
Principal Deputy Assistant          7.
Secretary of the Navy for Energy,
Installations, and Environment
Commander, Navy Installations       3., 6.                   2.
Command
Deputy Chief of Naval               1., 3., 7.               2.
Operations, Fleet Readiness and
Logistics
Deputy Assistant Secretary of the                            2.
Navy for Energy
Assistant Deputy Commandant         7.                       2., 4.
for Installations and Logistics
(Facilities)
Director, Shore Readiness           6.
Division (N46), Office of the
Chief of Naval Operations
Director, Naval Facilities          3.                       2.
Engineering Command Energy
Office
Naval Facilities Engineering        5.
Command Southwest Utilities
and Energy Manager

Please provide comments by October 24, 2011.




                                                 ii
Table of Contents
Introduction                                                                         1

      Objective                                                                      1
      Recovery Act Goals                                                             1
      Photovoltaic Technology and Recovery Act Spending                              1
      Process and Timeline for Selecting Department of the Navy Recovery
             Act Projects                                                            3
      Review of Internal Controls                                                    5

Finding. Officials Did Not Consider Cost-Effectiveness for Recovery Act
Photovoltaic Projects                                                                6

      Photovoltaic Projects Must Be Cost-Effective                                    6
      Military Construction; Facilities, Sustainment, Restoration, and Modernization;
             and Energy Policies Outline Project Planning Requirements                6
      Navy and Marine Corps Officials Should Have Used Planning
             Documentation to Select Projects                                         7
      Navy and Marine Corps Officials Should Have Adequately Planned
             Photovoltaic Projects Before Awarding Contracts                          8
      Navy and Marine Corps Should Establish Processes for Life-Cycle
             Cost Analyses                                                          13
      The Department of the Navy Did Not Have Comprehensive Policies
             for Energy Projects                                                    16
      The Department of the Navy Did Not Have an Energy Strategy                    18
      Navy and Marine Corps Recovery Act Photovoltaic Projects Were Not
             Cost-Effective                                                         19
      The Department of the Navy Could Recover Up to $3.34 Million by
             Obtaining Utility Rebates                                              21
      The Department of the Navy Is Taking Actions to Improve the Energy
             Program                                                                22
      Conclusion                                                                    23
      Management Comments on the Finding and Our Response                           24
      Recommendations, Management Comments, and Our Response                        25

Appendices

      A. Scope and Methodology                                                      36
            Use of Computer-Processed Data                                          36
            Use of Technical Assistance                                             38
            Prior Coverage                                                          38
Table of Contents (cont’d)
Appendices (cont’d)

      B. Projects Reviewed                                                        39
             Project RM09-1440, Photovoltaic Systems at Navy Installations
                      in California                                               39
             Project RM09-1363, Photovoltaic Systems at Navy Installations
                      in Hawaii                                                   40
             Project P856-M, Photovoltaic System at Marine Corps Base
                      Camp Pendleton, California                                  40
      C. Life-Cycle Cost Analysis Errors and Calculations of Project Savings      41
             Factors to Consider in Preparing Life-Cycle Cost Analyses            41
             Navy and Marine Corps Life-Cycle Cost Analyses                       42
             Auditor-Calculated Project Savings                                   49
      D. Department of the Navy Energy Program Organization                       50
      E. Criteria for Selecting and Planning Renewable Energy Projects            52
             Legislative and Federal Requirements                                 52
             DoD and Department of the Navy Policies for Renewable
                      Energy Projects                                             53
      F. Management Comments on the Finding and Our Response                      54

Management Comments

      Office of the Assistant Secretary of the Navy, Energy, Installations, and
             Environment                                                          61
      Commander, Navy Installations Command                                       68
      Assistant Deputy Commandant, Installations and Logistics (Facilities)       72
Introduction
Objective
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009” (Recovery Act), February 17, 2009.
Specifically, we determined whether the Department of the Navy planned and selected
3 photovoltaic (PV) projects at 12 Navy and Marine Corps sites in accordance with the
Recovery Act and applicable legislation and policies. We reviewed Project P856-M at
Marine Corps Base Camp Pendleton (Camp Pendleton), Project RM09-1363 at Navy
installations in Hawaii, and Project RM09-1440 at Navy installations in California. See
Appendix A for a discussion of the audit scope and methodology related to the audit
objective.

Recovery Act Goals
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
increase economic efficiency by investing in science and technology; and invest in
transportation, environmental protection, and other infrastructure. The Recovery Act also
established unprecedented efforts to ensure the responsible distribution of funds and
provide transparency and accountability of expenditures by informing the public of how,
when, and where tax dollars were being spent. Further, the Recovery Act states that the
President and heads of the Federal departments and agencies were to expend these funds
as quickly as possible, consistent with prudent management.

PV Technology and Recovery Act Spending
PVs are semiconductor devices that convert sunlight (solar energy) directly into
electricity. PV modules or panels are connected together to form PV arrays. The arrays
are connected to a single metering point that transfers the direct current electricity to an
inverter, which converts it into electricity compatible with building and utility power
systems. An entire PV system includes arrays, a metering point, inverters, and
supporting components, such as electrical conductors and wiring. The electricity
generated by a PV system is renewable energy because it comes from the sun.
Figures 1 and 2 on the following page show examples of PV systems that we reviewed.




                                              1
      Figure 1. Rooftop PV System at                        Figure 2. PV System on Box
       Naval Post-Graduate School,                           Canyon Landfill at Camp
           Monterey, California                                Pendleton, California




            Source: Navy Region Southwest                   Source: Camp Pendleton Energy Office

DoD received approximately $7.1 billion 1 in Recovery Act funds to use for projects that
support the Act’s purposes. In March 2009, DoD released expenditure plans that listed
DoD projects to be funded by the Recovery Act. The Department of the Navy received
$1.17 billion in Recovery Act funds, including $816 million for Operations and
Maintenance (O&M) and $280 million for Military Construction (MILCON). 2

The DoD Recovery Act Expenditure Plans included approximately $183.4 million in
funds for Department of the Navy Facilities, Sustainment, Restoration, and
Modernization (FSRM) 3 and MILCON PV projects, including $146.5 million for FSRM
PV projects and $36.8 million for MILCON PV projects. Figure 3 shows the estimated
costs for MILCON and FSRM PV projects that the Department of the Navy planned to
execute with Recovery Act funds.




1
 This amount does not include $4.6 billion for the U.S. Army Corps of Engineers. In addition, the original
appropriation for DoD was $7.4 billion; however, Public Law 111-226 rescinded $260.5 million.
2
 The original appropriation for the Department of the Navy was $1.22 billion, which included $866 million
for Operations and Maintenance. Public Law 111-226 rescinded $50 million in O&M funding for the
Department of the Navy. Public Law 111-226 did not affect MILCON and Research, Development, Test,
and Evaluation appropriations.
3
    These FSRM projects were funded with O&M appropriations.




                                                 2
                    Figure 3. Recovery Act Funding Planned for Department
                         of the Navy MILCON and FSRM PV Projects




We reviewed three PV projects with total estimated costs of $75.1 million, including
$64.4 million for two FSRM PV projects and $10.7 million for a MILCON PV project.
Project RM09-1440, with estimated project costs of $31.8 million, installed PV systems
on building rooftops at nine Navy installations in California. Project RM09-1363, with
estimated project costs of $32.6 million, installed PV systems on building rooftops at two
Navy installations in Hawaii. Project P856-M, a MILCON project with estimated costs
of $10.7 million, installed a solar power generating facility on an inactive landfill at
Camp Pendleton. The actual contract costs for these three projects combined were
$62.3 million, which included investment costs 4 of $50.8 million. See Appendix B for
more details about the three Recovery Act PV projects we reviewed and Appendix C for
more details on the investment cost of the projects.

Process and Timeline for Selecting Department of the
Navy Recovery Act Projects
The Department of the Navy was responsible for selecting Navy and Marine Corps
FSRM and MILCON projects to receive Recovery Act funds. The project selection
process occurred quickly and involved several Navy and Marine Corps offices. Officials
explained that the Commander, Navy Installations Command (CNIC) and Chief of Naval
Operations (CNO) Shore Readiness Division (N46) 5 worked closely with Naval Facilities
Engineering Command (NAVFAC) Headquarters, Naval Facilities Engineering Service
Center (NFESC), NAVFAC regions, and installations to select and recommend Navy
energy projects for Recovery Act funding. For the Marine Corps, officials explained that


4
    Project investment cost is the cost to implement a PV system minus the residual value of the PV system.
5
According to Department of the Navy officials, at the time of selecting projects for the Recovery Act, most
CNIC officials simultaneously worked at CNO N46. Officials also stated that in September 2009, the Vice
Admiral of CNO N4 separated CNIC and CNO N46 duties.


                                                       3
Deputy Commandant (Installations and Logistics) (DC[I&L]), in coordination with
installation officials, was responsible for identifying and recommending executable
Marine Corps energy projects to receive Recovery Act funds. After CNIC and DC(I&L)
finalized the project lists, they submitted the lists to the Assistant Secretary of the Navy
(Energy, Installations and Environment) (ASN[EI&E]) and the Assistant Secretary of the
Navy (Financial Management and Comptroller), which reviewed and sent the lists to the
Deputy Under Secretary of Defense (Installations and Environment) for incorporation
into the DoD Recovery Act Expenditure Plans. See Appendix D for additional
information on the structure of the Department of the Navy Energy Program.

Timelines for selecting, planning, and executing Recovery Act projects were short.
Figure 4 shows the timeline for selecting, planning, and executing Recovery Act projects.

  Figure 4. Timeline for Selecting, Planning, and Executing Recovery Act Projects




PDUSD(Comptroller)     Principal Deputy Under Secretary of Defense (Comptroller)
DUSD(I&E)              Deputy Under Secretary of Defense (Installations and Environment)

The Recovery Act, dated February 17, 2009, and its accompanying documents required
the Secretary of Defense to submit expenditure plans for MILCON and FSRM projects
within 30 days and 60 days, respectively, after the Act’s enactment. The Principal
Deputy Under Secretary of Defense (Comptroller) and the Deputy Under Secretary of
Defense (Installations and Environment) issued a memorandum on February 23, 2009,
directing the Services to provide input for MILCON projects by March 6, 2009, and input
for FSRM projects no later than March 27, 2009. DoD published an initial expenditure
plan for MILCON and FSRM projects on March 20, 2009, and the final expenditure
plans on May 15, 2009. Officials awarded contracts for Project RM09-1440 at Navy
installations in California in June and July 2009. In December 2009, officials awarded
contracts for Project RM09-1363 at Navy installations in Hawaii and Project P856-M at
Camp Pendleton. Recovery Act O&M funds expired on September 30, 2010, and
MILCON funds will expire on September 30, 2013.


                                                4
Review of Internal Controls
Our review of internal controls focused on the Navy and Marine Corps procedures for
planning and selecting energy projects using Recovery Act O&M and MILCON funds.
We reviewed whether strategies, policies, and procedures adequately defined processes
for planning and selecting cost-effective energy projects and whether the strategies and
policies aligned with legislative, Federal, and DoD requirements.

We identified internal control weaknesses in the Navy and Marine Corps processes for
planning and selecting energy projects. Specifically, internal controls were not in place
to ensure that the Recovery Act PV projects selected were cost-effective and were the
best investment to contribute toward energy goals. We also identified that a lack of
comprehensive energy strategies and policies could affect future project selection
decisions. We will provide a copy of the report to senior officials responsible for internal
controls.




                                             5
Finding. Officials Did Not Consider Cost-
Effectiveness for Recovery Act PV Projects
Navy and Marine Corps officials did not select and plan PV projects that were justified as
required by the Recovery Act; Federal legislation; and DoD, Navy, and Marine Corps
policies. According to Federal legislation and DoD policy, an energy project is a justified
investment only if it is cost-effective. Officials selected projects that were not justified
because they incorrectly determined that Recovery Act energy projects did not have to be
cost-effective. Additionally, at the time of the Recovery Act’s implementation, the
Department of the Navy policies for planning and selecting energy projects lacked:

    •   processes for completing and documenting life-cycle cost analyses;
    •   comprehensive processes for planning and selecting energy projects, regardless of
        funding; and
    •   a definition for an energy project.

The Department of the Navy also lacked an overall energy strategy. As a result, the
Department of the Navy will not be able to recover $25.1 million of the $50.8 million in
Recovery Act funds invested in three PV projects.

PV Projects Must Be Cost-Effective
Federal legislation and DoD criteria require renewable energy projects to be
cost-effective, which means that a project’s estimated savings must exceed its estimated
costs over the life of the project. Specifically, the National Defense Authorization Act
for 2007; Executive Order 13423, “Strengthening Federal Environmental, Energy, and
Transportation Management,” January 24, 2007; DoD Instruction 4170.11, “Installation
Energy Management,” December 11, 2009; 6 and DoD Unified Facilities
Criteria 3-400-01, “Energy Conservation,” July 5, 2002 (as amended in August 2008)
include requirements for renewable energy projects to be cost-effective. The Recovery
Act and subsequent related guidance also stress the importance of cost-effectiveness,
stating that agencies should spend funds “consistent with prudent management.” See
Appendix E for additional information on criteria for renewable energy projects.

MILCON, FSRM, and Energy Policies Outline Project
Planning Requirements
The Navy and Marine Corps have policies related to planning MILCON and FSRM
projects, such as the PV projects we reviewed. Office of the CNO
Instruction 11010.20G, “Facilities Projects Instruction,” October 14, 2005, provides
policy related to the planning requirements for the construction, maintenance, and repair
of Navy facilities. Marine Corps Order P11000.12C, “Real Property Facilities Manual,


6
 The November 22, 2005, version of this policy, which was valid during Recovery Act project selection,
contained the same requirements for cost-effective renewable energy projects.



                                                    6
Volume II, Facilities Planning and Programming,” January 21, 1986, establishes
procedures for planning and programming MILCON projects. Marine Corps
Order P11000.5G, “Real Property Facilities Manual, Volume IV, Facilities Projects
Manual,” September 30, 2004, establishes procedures and requirements for FSRM
projects. In addition, Unified Facilities Criteria 3-400-01 and the National Institute of
Standards and Technology Handbook 135, “Life-Cycle Costing Manual for the Federal
Energy Management Program,” February 1996, (Handbook 135) provide requirements
for energy projects. Together, these policies contain the following requirements for
project planning documentation:

   •   a DD Form 1391 to document the requirement for a project;
   •   a detailed and accurate cost estimate;
   •   an economic analysis;
   •   an environmental assessment; and
   •   a life-cycle cost analysis (LCCA).

Specifically, the policies require that the DD Form 1391 clearly describe the project
requirements and include supporting documentation to communicate project scope,
complexity, and cost to help officials select the most cost-effective option to achieve the
project objective. Supporting documentation commonly includes a detailed cost estimate
and environmental evaluations. In addition, an economic analysis should support the
DD Form 1391 by identifying and comparing alternatives for achieving project
objectives. Finally, an LCCA should compare the cost-effectiveness of project options
identified in the economic analysis. For a PV project, the LCCA should compare project
investment costs with electricity savings that result from operating the PV system.

Navy and Marine Corps Officials Should Have Used
Planning Documentation to Select Projects
Improved planning for FSRM and MILCON energy projects could have ensured that the
Navy and Marine Corps officials selected cost-effective Recovery Act projects.
Information in project planning documents, such as the DD Form 1391 and supporting
documents, was critical during the Recovery Act project selection process when officials
were required to make quick decisions to use Recovery Act funds in a prudent manner.
However, CNIC and DC(I&L) officials relied on
spreadsheets that included project title, location, cost, and     CNIC and DC(I&L)
amount of time for contract award as the basis for              officials acknowledged
selecting Recovery Act projects rather than considering           that, in general, PV
project justifications, cost estimates, and economic            projects were unlikely
analyses as required in Navy and Marine Corps policies.           to be cost-effective.
In addition, CNIC and DC(I&L) officials did not require
LCCAs during Recovery Act project selection to determine whether projects were
cost-effective as required by Federal and DoD criteria. However, CNIC and DC(I&L)
officials acknowledged that, in general, PV projects were unlikely to be cost-effective.
Nevertheless, officials selected the PV projects for Recovery Act funding.




                                             7
We acknowledge that timelines for planning and selecting Recovery Act projects were
short. The Recovery Act required the Secretary of Defense to provide Congress with an
expenditure plan for MILCON and FSRM projects within 30 and 60 days, respectively,
of the Act’s enactment. However, Department of the Navy officials could have made
better project selection decisions by considering information contained in project
planning documentation. Even if the Department of the Navy could not fully compile
planning information within the timeframes for initial project selection, officials should
have completed the planning documentation before issuing solicitations and awarding
project contracts.

Navy and Marine Corps Officials Should Have
Adequately Planned PV Projects Before Awarding
Contracts
Navy and Marine Corps officials did not adequately plan Recovery Act PV projects
before awarding their contracts. After Department of the Navy officials selected projects
                                   and DoD published the Recovery Act expenditure plan
    Navy and Marine Corps          in March 2009, officials at Navy and Marine Corps
        officials did not          regions and installations were responsible for
   adequately plan Recovery        completing the required project planning documentation
     Act PV projects before        outlined in Navy and Marine Corps policies and for
   awarding their contracts.       executing the projects. Officials awarded contracts for
                                   Project RM09-1440 at Navy installations in California
in June and July 2009. In December 2009, officials awarded contracts for
Project RM09-1363 at Navy installations in Hawaii and Project P856-M at Camp
Pendleton. However, at the time the contracts were awarded, most of the planning
documentation needed to justify these projects was either inadequate or nonexistent.
Although officials properly completed environmental evaluations, we identified
deficiencies with project justifications on the DD Forms 1391, cost estimates, economic
analyses, and LCCAs.

Project Justifications on DD Forms 1391 Were Misleading
Navy and Marine Corps officials prepared or updated the DD Forms 1391 for Recovery
Act projects in February and March 2009; however, the DD Forms 1391 for all three
projects lacked accurate project justifications. Navy and Marine Corps policies require a
project justification to clearly describe the project’s requirement in terms of its impact to
mission, life-cycle economics, or other factors.

The justifications for the three PV projects we reviewed focused on the Department of the
Navy’s progress toward meeting legislative energy goals. Various legislation establishes
goals for reducing the Federal Government’s energy consumption and increasing its use
of renewable energy. The Department of the Navy reports annually on progress toward
meeting these goals. Table 1 shows the legislative energy goals and the Department of
the Navy’s progress toward meeting those goals as reported in DoD’s Annual Energy
Management Report for FY 2009.



                                              8
Table 1. Legislative Renewable Energy Goals and Department of the Navy Progress
                          Toward Goals as of FY 2009
   Legislation                   Requirement                        Progress as of FY 2009
                          Percent of total electricity
                          consumption must be from                  Consumed 0.6 percent of
Energy Policy Act
                          renewable electric energy:           electricity from renewable electric
    of 2005
                            3 percent in FY 2009               energy and did not meet this goal.
                            5 percent in FY 2010
     Energy
                         12 percent reduction in energy
Independence and                                               Achieved a 15.2 percent reduction
                       consumption per gross square foot
   Security Act                                                    in energy consumption.
                        in FY 2009, relative to FY 2003.
     of 2007
                        DoD must produce or procure at
 2007 National        least 25 percent of the total electric   Produced or procured 18.9 percent
    Defense            energy consumed during FY 2025             of electricty from renewable
Authorization Act     and each year after from renewable                 energy sources.
                                energy sources.


The justifications for the projects we reviewed stated that investments in renewable
energy projects provide for the replacement of traditional energy sources and recurring
energy payments, allowing for reductions in infrastructure costs and increases in
resources for strategic and logistical functions. The justifications also indicated that the
projects would contribute substantially to meeting legislative energy goals for reducing
energy consumption and increasing use of renewable energy. Specifically, the
justifications for the three projects were as follows:

    • Project RM09-1440 in California: the DD Form 1391 stated that the project was
      the most cost-effective investment for achieving the greatest progress toward
      renewable energy goals.
    • Project RM09-1363 in Hawaii: the DD Form 1391 stated that if the project was
      not implemented, the Department of the Navy would not meet renewable energy
      goals.
    • Project P856-M at Camp Pendleton: the DD Form 1391 stated that if the project
      was not implemented, the Department of the Navy would not comply with the
      Energy Policy Act.

However, the contributions of these three Recovery Act projects, collectively, will
contribute only minimally toward renewable energy goals. The three projects will
increase the Department of the Navy’s progress toward the 2007 National Defense
Authorization Act goal from 18.9 percent to 19 percent and will increase progress toward




                                                9
the Energy Policy Act goal from 0.6 percent to 0.9 percent. 7 Figure 5 shows the
Department of Navy’s progress toward renewable energy goals, including the
contributions made by the projects we reviewed.

          Figure 5. Additional Progress Toward Meeting Renewable Energy
           Goals as a Result of the Recovery Act PV Projects We Reviewed




The project justifications on the DD Forms 1391 were misleading because they indicated
that the projects would contribute substantially to meeting renewable energy goals when,
in fact, the projects’ contributions will be minimal. Although it is important for the
Department of the Navy to progress toward meeting legislative energy goals, the
DD Form 1391 project justifications misrepresented the projects’ actual impact on
meeting renewable energy goals.

Not All Cost Estimates Were Supported
Not all of the cost estimates for the three PV projects we reviewed were adequately
supported. Cost estimates are critical in calculating a project’s monetary return on
investment. Navy and Marine Corps policies require project justifications to include a
verifiable cost estimate that correlates to the project description and scope. The policies
also state that cost estimates should be detailed and should itemize specific quantities and
unit costs rather than using lump sum costs, whenever possible.




7
 We based these calculations on information from the Department of the Navy’s FY 2009 Annual Energy
Management Data Report. We considered only the increase in renewable electric energy generation from
the three Recovery Act projects we reviewed and assumed all other information remained the same.


                                                 10
The DD Forms 1391 for the three projects we reviewed included cost estimates, and in
some cases, officials provided additional documentation to accompany these estimates.
However, not all of the cost estimates for the three projects were adequately supported.
For example:

   •   The cost estimate for Project P856-M at Camp Pendleton contained only lump
       sum costs, and officials could not provide support for how they developed the
       estimates.
   •   The cost estimate for Project RM09-1440 in California contained lump sum costs
       for each of the nine locations included in the project. Officials provided detailed
       cost estimates for each location. The detailed cost estimates supported the costs
       on the DD Form 1391 for six of the locations; however, officials could not
       provide support for the costs for the other three locations.
   •   The DD Form 1391 for Project RM09-1363 in Hawaii contained cost estimates
       based on square footage for each building included in the project but did not
       account for the type of PV system installed or the cost-efficiencies based on
       building size. Furthermore, personnel could not explain the assumptions used to
       develop cost estimates.

Officials Prepared Inadequate Economic Analyses and Did Not
Consider LCCAs Prior to Awarding Contracts
Navy and Marine Corps officials prepared economic analyses that did not adequately
consider alternatives to PV systems. Additionally, officials either did not prepare or did
not consider LCCAs before soliciting and awarding contracts. Economic and life-cycle
cost analyses are critical for selecting and planning cost-effective energy projects. The
economic analysis should evaluate available alternatives for meeting the project
objective, and the LCCA should evaluate the cost-effectiveness of the alternatives.

The DD Forms 1391 for the PV projects we reviewed stated that the objective was to
save energy and meet energy goals. Therefore, the economic analysis should have
evaluated alternatives for achieving this objective, such as reducing energy consumption
or executing types of renewable energy projects other than PV systems. However, Navy
and Marine Corps officials prepared the economic analyses with the sole objective of
installing a PV system. For the PV projects we reviewed, officials evaluated the options
of leasing, renovating, or constructing facilities to receive PV systems instead of
considering other renewable energy projects. Therefore, officials did not adequately
consider alternatives to PV systems to meet the projects’ objectives.

After preparing the economic analysis to identify options for achieving the project
objective, officials should prepare an LCCA to evaluate all viable alternatives and ensure
that the selected alternative is cost-effective. According to Handbook 135, which
provides LCCA criteria for energy projects at Federal facilities, agencies must carefully
document LCCAs in order to keep track of the evaluation process, create a decision-
supporting record, and have information easily accessible for future LCCAs.
Handbook 135 states that the primary purpose of an LCCA is to demonstrate that a
project’s operational savings are sufficient to justify its additional investment cost.


                                            11
Handbook 135 also states that the amount of time and detail put into development of
LCCAs should increase when the pressure to make choices on factors other than
economics also increases. This guidance particularly applied to the Recovery Act
because the Act required officials to select and execute projects quickly.

However, officials at Navy and Marine Corps regions and installations either did not
prepare or did not consider the results of LCCAs before soliciting and awarding contracts
for the PV projects we reviewed. For example:

   •   For Project RM09-1363 in Hawaii, officials did not prepare LCCAs before
       awarding the contracts for the two project locations. Therefore, Navy officials in
       Hawaii awarded contracts without assurance that the project was cost-effective.
   •   For Project RM09-1440 in California, while officials could not provide original
       LCCAs for the project, contract documents indicated that officials performed
       LCCAs to evaluate contractor proposals before awarding contacts in June and
       July 2009. The results of this analysis contained in the award decision
       documentation showed that 64 to 84 percent of the investment costs for each PV
       system at nine California locations would not be recovered. Nevertheless,
       officials awarded contracts for the project.
   •   For Project P856-M at Camp Pendleton, Marine Corps officials prepared an
       LCCA in February 2009 before issuing a solicitation for the project in
       October 2009. Although the LCCA results showed that 61 percent of the
       system’s investment cost would not be recovered, officials awarded a contract for
       the project in December 2009.

Figure 6 shows the results of LCCAs that Navy and Marine Corps officials performed
before contract award, which showed that projects were not cost-effective. Because
Navy officials did not prepare LCCAs before awarding contracts for the PV project in
Hawaii, its two sites are not listed in the figure.




                                           12
           Figure 6. Department of Navy Calculations of Cost-Effectiveness
                         Available Before Contract Award




1
 The percentages are based on Navy and Marine Corps LCCAs prepared before awarding contracts for PV
systems.

As Figure 6 shows, none of the LCCAs prepared by the Navy or Marine Corps showed
that the PV projects were cost effective. Despite these results or the lack of LCCAs,
officials awarded contracts to complete three projects with investment costs of over
$50 million.

Navy and Marine Corps Should Establish Processes for
Life-Cycle Cost Analyses
Navy and Marine Corps policies lacked processes for performing and documenting
LCCAs, which are essential for determining the cost-effectiveness of energy projects.
The DoD Unified Facilities Criteria 3-400-01 states that LCCAs should be prepared for
energy projects. LCCAs compare the cost-effectiveness of project options listed on the
economic analysis and enable officials to select the most cost-effective one. Based on
Handbook 135, LCCAs for PV projects should compare project investment costs with
electricity savings that result from operating the PV system, and should account for
significant costs and savings during the useful life of the PV system, such as those for
equipment replacements, utility rebates, and maintenance. Handbook 135 requires
carefully documented LCCAs to keep track of the evaluation process, create a
decision-supporting record, and have information easily accessible for future LCCAs.
Despite the importance of detailed and accurate LCCAs for Recovery Act PV projects,
Navy and Marine Corps officials completed LCCAs that contained inaccurate
information.


                                                13
We reviewed the detailed LCCAs prepared by Navy and Marine Corps officials for the
12 project sites. 8 We identified issues related to lack of support for calculations as well
as overstatements and understatements of project savings. For example, NAVFAC
Southwest and Camp Pendleton officials were unable to support the amount of utility
rebates and cost of electricity charged by their utility companies, but nevertheless used
this information in their LCCAs to calculate project savings. If officials had prepared
and retained supporting documentation to supplement their LCCAs, they may have
detected many of the inaccuracies that we identified.

We also identified misstatement of costs in the LCCAs. Our review of the 12 LCCAs
identified overstatements of about $9.1 million because of inaccurate project data. Most
LCCA errors resulted in overstated project savings; however, some of the errors also
                                  resulted in understated project savings. The most
                                  significant LCCA error we identified was a $5.6 million
       Our review of the
                                  overstatement of the electricity costs saved by operating
     12 LCCAs identified
                                  PV systems instead of buying electricity from a utility
   overstatements of about
                                  provider. Electricity cost savings were overstated
    $9.1 million because of
                                  because officials did not account for degradation in
   inaccurate project data.
                                  electricity production over the useful life of the PV
                                  system. Further, on eight LCCAs, officials
double-counted electricity demand charges (fees assessed by utility companies during
peak usage periods). We also identified errors related to costs for replacing inverters,
Government monitoring (supervision, inspection, and overhead), and roof replacements,
as well as residual value and utility rebates. For example, at one site, residual value was
understated by about $1.3 million. See Appendix C for additional details on the LCCAs
we reviewed. Table 2 shows how inaccurate LCCA data impacted the cost-effectiveness
of the 12 project sites we evaluated.




8
 Project RM09-1440 was executed at nine sites in California; Project RM09-1363 was executed at two sites
in Hawaii; and Project P856-M was executed at Camp Pendleton. All project sites were located on Navy or
Marine Corps installations, and each project site had an LCCA. The LCCAs calculated project costs and
savings of implementing PV systems over a 20-year period.


                                                  14
      Table 2. Impact of Inaccurate LCCA Data on Cost-Effectiveness of Project Sites
                                                                              Overall      Overall Impact
                          Number          Number of           Number of
                                                                             Impact of       of Errors on
                             of           Inaccurate          Inaccurate
 LCCA Category                                                               Errors on     Project Savings
                          Accurate          LCCAs               LCCAs
                                                                              Project       (in millions of
                          LCCAs          (Overstated)        (Understated)
                                                                              Savings           dollars)
Electricity Costs
                        0                      11                   1        Overstated         $5.55
Saved
Inverter
                        8                      3                    1        Overstated         $0.46
Replacement Costs
Excluded Roofing
                        2                      6                    4        Overstated         $0.30
Costs
Supervision,
Inspection, and         3                      9                    0        Overstated         $0.80
Overhead Rate
Construction Costs     10                       1                   1        Understated        $0.50
Maintenance Costs       0                      11                   1        Overstated         $0.20
Residual Value
                       11                      0                    1        Understated        $1.38
Rate
Utility Rebates1        5                      7                    0        Overstated         $3.68
Total Impact of LCCA Errors2                                                 Overstated         $9.10
 1
     We did not include utility rebates in our LCCA calculations.
 2
     The total does not sum accurately because of rounding.

 The errors on the LCCAs impacted the estimated project savings for the projects we
 reviewed. For example, for Project RM09-1440 in California, four of the nine LCCAs
 NAVFAC Southwest officials completed showed that the projects were cost-effective.
 However, after we adjusted the LCCAs to correctly account for the errors we identified,
 none of the PV systems at these four project sites were cost-effective. Although
 NAVFAC Southwest officials calculated that these four projects would save $2 million,
 we calculated that the Navy will not recover about $4.6 million of the funds invested.

 As shown in Table 2, the costs and savings data that Navy and Marine Corps officials
 used to prepare LCCAs were not consistently accurate
 or inaccurate. Although Handbook 135 includes
                                                                Without standard LCCA
 general considerations for preparing LCCAs, the Navy
                                                             processes, it may be difficult
 and Marine Corps need to develop detailed procedures
                                                              to accurately compare one
 that standardize the preparation of LCCAs for their
                                                             project with another and to
 energy programs. Without standard LCCA processes,
                                                              rely on the accuracy of the
 it may be difficult to accurately compare one project
                                                               estimated project savings.
 with another and to rely on the accuracy of the
 estimated project savings.




                                                        15
These inconsistencies illustrate the need for the Navy and Marine Corps to develop
standardized methods for estimating the costs and savings required to prepare LCCAs.
LCCAs that are inconsistent with Federal and DoD policies or that contain inaccurate or
unsupported data can lead to decisions to implement energy projects that are not cost
effective. Processes for developing LCCAs should include standardized methods for
estimating project costs and energy savings during project planning. Updated policies
should assist Department of the Navy officials with preparing accurate and supported
LCCAs that result in cost-effective energy investments.

The Department of the Navy Did Not Have
Comprehensive Policies for Energy Projects
In addition to the lack of processes for performing and documenting LCCAs, the
Department of the Navy lacked comprehensive policies for planning and selecting energy
projects. Although the Department of the Navy had certain policies and procedures for
                                        planning and selecting projects, they were not
     Although the Department of         comprehensive enough to help officials determine
    the Navy had certain policies       whether energy projects, such as the PV projects
    and procedures for planning         we reviewed, were good investments. At the time
     and selecting projects, they       of the Recovery Act’s implementation, the
       were not comprehensive           Department of the Navy had several policies for
       enough to help officials         the energy program. Additionally, the policies and
      determine whether energy          guidance for the Navy and Marine Corps energy
       projects, such as the PV         programs included general goals, objectives, and
     projects we reviewed, were         responsibilities for energy management. However,
          good investments.             these policies and guidance omitted certain critical
                                        elements for ensuring that energy managers
consistently select cost-effective and justified energy projects. These missing elements
included processes for documentation of LCCAs, comprehensive procedures for planning
and selecting energy projects, and a definition of an energy project.

Navy and Marine Corps Should Establish Comprehensive
Processes for Planning and Selecting Energy Projects
The Navy and Marine Corps energy policies did not include comprehensive processes for
planning and selecting energy projects. Although Navy and Marine Corps policies
outline detailed processes for planning and executing FSRM and MILCON
construction-type projects, which include repair and renovation projects, the policies did
not fully address the requirements unique to energy projects.

NFESC published the “Navy and Marine Corps Energy Project Execution Guide”
(Project Execution Guide), in November 2007 to assist energy managers with planning,
selecting, and executing Energy Conservation Investment Program (ECIP) and financed
energy projects. Although the Project Execution Guide provides guidance for planning
and selecting energy projects, it is not official policy because NFESC lacks authority to
promulgate policy. Further, the Project Execution Guide presents only three ways to
execute energy projects: ECIP, utility energy services contracts, and energy savings


                                            16
performance contracts. 9 This excludes the alternative of executing energy projects with
O&M funding. Marine Corps Order P11000.9C, “Real Property Facilities Manual,
Volume VI, Energy and Utilities Management,” November 12, 1991, provides guidance
for ECIP projects and for FSRM energy projects executed with O&M funds. Therefore,
neither the Navy nor the Marine Corps policies address the planning and selection of
MILCON-funded energy projects other than ECIP projects. Navy and Marine Corps
policy should include processes for planning and selecting all energy projects, regardless
of funding sources.

Department of the Navy Should Clearly Define an Energy Project
Department of the Navy policies, to include Navy and Marine Corps policies, do not
clearly define what constitutes an energy project. DoD Instruction 4170.11 10 and the
DoD Unified Facilities Criteria 3-400-01 discuss several types of energy projects,
including renewable energy projects, projects involving purchase of efficient energy-
consuming products, and projects that have an energy component involving DoD
facilities. However, Secretary of the Navy Instruction 4100.9A, “Department of the
Navy (DON) Shore Energy Management,” October 1, 2001; Office of the Chief of Naval
Operations Instruction 4100.5D, “Energy Management,” April 12, 1994; and Marine
Corps Order P11000.9C do not clearly define the elements of an energy project.

The Project Execution Guide, the use of which is required by NAVFAC officials despite
the fact that it is not official policy, includes a definition of an energy project that
contradicts DoD policy. The Project Execution
Guide states that to be considered an energy                  The contradictory definitions
project, a project’s primary purpose must be to               of an energy project included
save energy or water. For example, according to                in the DoD policy and Navy
the Project Execution Guide, a construction project          guidance demonstrate the need
with a PV component would not qualify as an                    for Department of the Navy
energy project because saving energy is not its                policy to clearly define what
primary purpose. However, based on DoD Unified                constitutes an energy project.
Facilities Criteria 3-400-01, this project would
qualify as an energy project, and the PV component would have to be cost-effective. The
contradictory definitions of an energy project included in the DoD policy and Navy
guidance demonstrate the need for Department of the Navy policy to clearly define what
constitutes an energy project. Given a clear definition that is consistent with DoD policy,
the Navy and Marine Corps can be consistent in planning, selecting, and executing
energy projects.




9
 Utility energy services contracts and energy savings performance contracts are methods of contracting in
which a utility company or a private contractor incurs the costs to implement an energy project in exchange
for a predetermined share of energy savings resulting from the project.
10
 We used the December 2009 version of this instruction. However, as we previously noted, the
November 2005 version was valid during Recovery Act project selection and addressed the same types of
energy projects as the current instruction.


                                                    17
The Department of the Navy Did Not Have an Energy
Strategy
Although energy goals have existed since 1978, the Department of the Navy lacked an
energy strategy as the foundation for achieving Federal and legislative energy goals at the
time of the Recovery Act. A Department of the
Navy energy strategy may have improved
                                                         The Department of the Navy
Recovery Act energy investments. An energy
                                                         lacked an energy strategy as
strategy should outline the energy program
                                                         the foundation for achieving
management structure and provide guidance on
                                                        Federal and legislative energy
aligning available resources to achieve legislative
                                                            goals at the time of the
energy goals. Implementation plans should
                                                                 Recovery Act.
accompany energy strategies and should identify
the specific goals, initiatives, and tasks for
meeting strategic goals and assign responsibilities within the organization for carrying
out these tasks. An overarching Department of the Navy strategy that outlines specific
objectives and metrics will enable installation energy managers to develop plans that
effectively align with energy goals. If a strategy had been in place during the Recovery
Act’s implementation, Navy and Marine Corps officials may have been better equipped
to handle the quick timelines for planning and selecting Recovery Act projects that were
justified, cost-effective, and contributed the maximum amount to energy goals.

Since the Recovery Act’s implementation, the Department of the Navy has taken steps to
establish energy strategies and implementation plans. In October 2009, the Secretary of
the Navy established five ambitious, long-term energy goals focused on energy security
and energy independence and also published “Naval Energy-A Strategic Approach.”
These initiatives identified goals for the Department of the Navy energy program in
addition to those established by legislation.

On October 1, 2010, the Secretary of the Navy published the “Department of the Navy’s
Energy Program for Security and Independence,” which serves as the overall energy
roadmap for the Navy and the Marine Corps. The Secretary of the Navy also directed the
CNO and the Commandant, Marine Corps to develop strategic energy plans by
December 2010 that would include requirements, funding profiles, milestones, and a
critical path to achieve the Secretary of the Navy’s energy goals.

The Navy and Marine Corps have also taken steps to establish energy strategies and
implementation plans. In October 2010, the Navy published “A Navy Energy Vision for
the 21st Century.” This energy vision serves as a high-level overview of where the Navy
is heading with its energy program, and it is aligned with the Secretary of the Navy goals.
However, this vision does not outline the energy program management structure or
provide guidance on aligning resources to achieve energy goals. While there is currently
no implementation plan for this vision, Navy officials stated that CNO N46 is in the early
stages of developing a shore energy implementation plan. It is critical that an energy
strategy include an implementation plan that cites specific tasks and metrics and assigns
responsibilities for the energy program.


                                            18
Additionally, in March 2011, the Marine Corps published the “United States Marine
Corps Expeditionary Energy Strategy and Implementation Plan.” This strategy
communicates the Commandant of the Marine Corps’ vision, mission, goals, and
objectives for the energy program, both on the battlefield and at Marine Corps
installations. The implementation planning guidance identifies specific tasks,
responsibilities, and timeframes for achievement. Taken together, the strategy and the
implementation plan provide foundational guidance for energy investments and
management across the Marine Corps.

Having energy strategies for the Navy and Marine Corps that align with an overall energy
strategy for the Department of the Navy may help officials select energy projects that are
justified, cost-effective, and contribute maximally toward achieving energy goals. The
combination of strategies and detailed implementation plans will enable officials to be
better equipped when planning and selecting energy projects.

Navy and Marine Corps Recovery Act PV Projects Were
Not Cost-Effective
Despite the requirements in Federal legislation and DoD policy, Navy and Marine Corps
officials invested in Recovery Act PV projects that were not cost-effective. By
definition, cost-effective means that a project’s estimated savings exceed its estimated
costs over the life of the project. Project investment cost is the cost to implement a PV
system 11 minus the residual value of the PV system after 20 years. 12 We compared the
investment costs of the PV projects we reviewed with the electricity costs avoided by
operating them over a 20-year study period and determined that the PV projects
implemented by the Department of the Navy were not life-cycle cost-effective.
Specifically, the three projects we reviewed will not recover $25.1 million of the
$50.8 million in Recovery Act funds invested. For example, Project P856-M at Camp
Pendleton will not recover $5.17 million of the $8.43 million invested in the project.
Refer to Appendix C for additional information on calculations of investment cost and
costs not recovered. Figure 7 shows the savings for the three PV projects we reviewed,
as well as the amount of the investment costs that will not be recovered over the life of
the projects.




11
     The cost to implement the PV system includes Government supervision, inspection, and overhead.
12
  Handbook 135 states that the study period for a life-cycle cost analysis generally is the system service
life. We analyzed the costs and benefits of implementing PV systems over a 20-year period because each
system had at least a 20-year warranty.


                                                     19
               Figure 7. Investment Costs, Project Savings, and Funds
                    Not Recovered for Recovery Act PV Projects




As Figure 7 shows, the total costs of the three PV projects that we reviewed exceed the
estimated savings. Because projects were not cost-effective, they were not justified
Recovery Act projects. Officials selected projects that were not justified because there
was a prevailing belief among Navy and Marine Corps officials that Recovery Act FSRM
and MILCON energy projects did not have to be cost-effective. CNIC officials
acknowledged that a key requirement for an energy project is its ability to pay for itself in
a reasonable amount of time. However, Navy and Marine Corps officials stated that
Recovery Act projects were different from typical energy projects. Officials determined
that the FSRM and MILCON Recovery Act PV projects we that reviewed were exempt
from normal processes that require preparation of DD Form 1391s, cost estimates, and
other supporting documentation, specifically because the Recovery Act provided
supplemental funding with unique purposes and goals. CNIC officials explained that for
the Recovery Act, DoD goals focused on stimulating the economy, creating jobs, and
improving energy efficiency, and NFESC officials stated that cost-effectiveness was a
requirement only for Recovery Act ECIP projects, not the FSRM and MILCON PV
projects that we reviewed. Therefore, officials concluded cost-effectiveness was not
intended to be a necessary consideration for the FSRM and MILCON energy projects we
reviewed. However, the Office of Management and Budget issued guidance in
February 2009 stating that the Recovery Act does not waive existing requirements.
Therefore, the Recovery Act did not waive requirements for energy projects to be
cost-effective.



                                             20
The Department of the Navy Could Recover Up to
$3.34 Million by Obtaining Utility Rebates
For the two projects in California that we reviewed, the Department of the Navy may be
                               able to recover approximately $3.34 million by obtaining
   The Department of the       rebates. Three utility companies participate in the
    Navy may be able to        California Solar Initiative (CSI) program, which offers
   recover approximately       rebates for customers who implement solar energy systems.
      $3.34 million by         Because the amount of the rebates decreases as more
     obtaining rebates.        customers claim them, it is more beneficial for customers
                               to claim the rebates as soon as possible. Additionally,
Navy and Marine Corps officials stated that the CSI rebates were limited to one megawatt
per installation.

NAVFAC Southwest officials included CSI rebates on six of the nine LCCAs prepared in
June 2010 for Project RM09-1440 at Navy installations in California. However, in
October 2010, NAVFAC Southwest officials acknowledged that they had not applied for
CSI rebates because they thought saving these rebates, which are restricted to one
megawatt per installation, for future projects would provide a better benefit to the
Government. However, because the CSI rebates decrease over time, the rebates may be
worth less or the CSI rebate program may end before installations execute future projects.
In October 2010, NAVFAC Southwest officials agreed to apply for the CSI rebates for
Project RM09-1440, which could recover up to $2.17 million.

In January 2011, NAVFAC Southwest officials stated that they submitted CSI rebate
applications for one of the eligible project sites, Naval Weapons Station Seal Beach.
However, officials later stated that the applications were rejected because the systems did
not meet CSI metering and monitoring requirements. An amendment to the request for
proposal for the PV systems at Naval Weapons Station Seal Beach stated that NAVFAC
would not pursue rebates, which explains why the systems did not meet CSI
requirements.

As of August 2011, only one of the participating utility companies, which includes Naval
Weapons Station Seal Beach and Naval Base Ventura County, had funding for rebates for
non-residential customers. According to NAVFAC Southwest officials, these sites will
not be eligible for rebates unless they spend additional funds on meters and monitoring
contracts. NAVFAC Southwest officials should determine the life-cycle cost
effectiveness of implementing meters and monitoring contracts and then develop and
implement a plan to acquire meters, monitoring contracts, and rebates for systems where
rebate funds are available and the economic return of the rebate exceeds the cost of the
system upgrades.

Project P856-M at Camp Pendleton was completed in January 2011. However, officials
stated that the installation has reached its one megawatt limit and will not receive a CSI
rebate unless they can negotiate an expansion of the CSI rebate program specifically for
Camp Pendleton. Camp Pendleton officials applied for a CSI rebate and are negotiating



                                            21
expansion of the rebate program. If Camp Pendleton receives an expansion of the rebate
and the rebate program is reinstated, it could recover up to $1.17 million.

We were unable to identify Navy or Marine Corps policies pertaining to financial
incentive programs 13 for energy projects such as the CSI rebate. A NAVFAC Southwest
official confirmed that there were no Navy policies or guidance related to financial
incentive programs. Navy and Marine Corps energy policies should include
responsibilities for securing incentives, such as CSI rebates, for energy projects and
provide guidelines for claiming these incentives. Energy policies should also require
responsible officials to claim incentives for energy projects or to document their
justification for saving incentives for future projects.

The Department of the Navy Is Taking Actions to
Improve the Energy Program
The Department of the Navy is taking positive steps to improve its energy program. The
Department of the Navy, including the Navy and Marine Corps, has established new
offices to centralize and coordinate energy efforts. Additionally, the Navy issued
guidance related to energy projects and implemented a new project selection tool.

Centralization and Coordination of the Energy Program
The Department of the Navy, to include the Navy and Marine Corps, has centralized the
energy programs under new offices throughout their organizations. The Department of
the Navy created the office of the Deputy Assistant Secretary of the Navy for Energy
under the Assistant Secretary of the Navy (Energy, Installations and Environment) to lead
the coordination of the energy program and advocate for funding and resources on energy
initiatives for the Navy and Marine Corps. The Deputy Assistant Secretary of the Navy
for Energy will also develop energy policy and guidance for the Department of the Navy.

The Navy separated the CNO N46 office and the CNIC office, thereby separating the
previously-combined requirements generation and approval responsibilities.
Additionally, NAVFAC established the NAVFAC Energy Office to centralize and
integrate all energy needs within NAVFAC. Additionally, in October 2009, the Marine
Corps established the Expeditionary Energy Office to analyze, develop, and direct the
Marine Corps energy strategy to improve its expeditionary capabilities and to meet the
Secretary of the Navy’s goals and all other energy goals.

Navy Has Issued Updated Policy and Implemented a New Project
Selection Tool for Energy Projects
The Navy has taken additional steps to issue updated policy and implement a project
selection tool related to energy projects. CNO N46 is drafting an updated version of the
Office of the Chief Naval Operations Instruction 4100.5E, “Energy and Water


13
  Marine Corps Order P11000.9C encourages activities to apply for and accept approved incentives, but
does not include responsibilities or procedures for handling incentive programs.


                                                  22
Management.” NAVFAC also issued Engineering and Construction Bulletin 2011-01 on
December 20, 2010, which established energy and sustainability standards for new
building construction and building renovation projects. It requires LCCAs to adhere to
Handbook 135 and states that, per Executive Order 13423, renewable energy generation
projects shall be implemented when life-cycle cost-effective.

Navy officials also explained that CNIC, in coordination with CNO N46 and the
NAVFAC Energy Office, will be using a new project selection tool called
Energy-Return on Investment (e-ROI). The e-ROI tool uses weighted average analysis of
elements, such as contribution toward renewable energy goals and providing backup
power to critical facilities, to rank O&M shore energy projects and facilitate their
selection. Although agencies should consider these relevant factors when selecting
energy projects, they do not negate existing Federal and DoD regulations that require all
energy projects to be life-cycle cost-effective. Therefore, CNO N46 should review the
e-ROI tool to ensure it adheres to life-cycle cost-effectiveness requirements in legislation
and Federal and DoD criteria for energy projects.

We commend the Department of the Navy, as well as the Navy and Marine Corps, for
taking action to improve their energy efforts. The centralization of the energy programs
in the Navy and Marine Corps and at the Department of the Navy level and the additional
guidance related to energy projects are positive steps toward improving the Department
of the Navy energy program.

Conclusion
The legislation that establishes energy goals includes clear requirements that energy
projects be life-cycle cost-effective. While shortened time frames for executing
Recovery Act funds hindered the typical processes for selecting and planning energy
projects, the Recovery Act required officials to ensure the prudent use of Recovery Act
funds. Additionally, according to Federal legislation and DoD policy, an energy project
is a justified investment only if it is cost-effective.

Navy and Marine Corps officials did not select and plan PV projects that were justified.
As a result, the Department of the Navy invested $50.8 million in Recovery Act funds for
three PV projects, but will only recover about $25.8 million. However, Navy and Marine
Corps officials lacked the tools to help ensure that the projects they selected and planned
were good investments. Specifically, at the time of the Recovery Act, the Navy and
Marine Corps had policies and procedures in place for selecting and planning energy
projects, but the policies did not address selection and planning of FSRM and MILCON
energy projects, such as the PV projects we reviewed. In addition, the definition of an
energy project included in Navy guidance contradicted the definition in DoD policy. The
policies also did not establish standard processes for performing and documenting life-
cycle cost analyses, which are critical for project planning and determining the cost-
effectiveness of a project. As a result, we identified that Navy and Marine Corps officials
overstated project savings in life-cycle cost analyses by about $9.1 million. Overstating
project savings may result in decisions to fund future energy projects that are not cost-
effective.


                                            23
Additionally, the Department of the Navy did not have an energy strategy or
implementation plan as the foundation for achieving Federal and legislative energy goals
at the time of the Recovery Act. Energy strategies and implementation plans that provide
guidelines on aligning resources and specific tasks and responsibilities to achieve energy
goals may help to guide Navy and Marine Corps officials to select more cost-effective
projects in the future.

Despite the deficiencies in energy strategies and policies, Navy and Marine Corps
officials within CNIC, NAVFAC, and DC(I&L) involved with selecting Recovery Act
projects were responsible for ensuring prudent use of Recovery Act funds. Proper
planning for Recovery Act projects may have ensured that officials selecting projects had
all necessary information to select projects that were cost-effective and contributed the
most toward meeting legislative energy goals. Instead, officials responsible for project
selection did not require project justifications, life-cycle cost analyses, or economic
analyses for selected energy projects. Further, officials acknowledged that the PV
projects selected were not cost-effective. These project decisions contradicted Recovery
Act guidelines, as well as Federal and DoD energy policies, and the Department of the
Navy officials involved with project selection and planning should be held accountable
for their decisions.

The Department of the Navy has taken steps to improve its energy programs by
restructuring its organization, writing strategies and draft policies, and implementing new
project selection tools. Our recommendations should complement these improvements
and enable officials to invest in projects that contribute toward energy goals cost-
effectively.

Management Comments on the Finding and Our
Response
Summaries of management comments on the finding and our responses are in
Appendix F.




                                            24
Recommendations, Management Comments, and Our
Response
Revised and Redirected Recommendations
As a result of management comments, we revised draft Recommendation 5 to consider
the additional costs necessary to obtain California Solar Initiative rebates. We revised
and consolidated draft Recommendations 7 and 8, and we redirected the new
Recommendation 7 to include the Principal Deputy Assistant Secretary of the Navy for
Energy, Installations, and Environment; the Principal Deputy Under Secretary of Defense
(Comptroller); and the Deputy Under Secretary of Defense (Installations and
Environment).

1. We recommend that the Deputy Chief of Naval Operations, Fleet Readiness and
   Logistics, develop:

       a. A comprehensive shore energy strategy that outlines the energy program
          management structure and aligns resources with legislative energy goals;
          and

       b. An implementation plan that identifies specific tasks, metrics, and
          responsibilities for meeting energy goals.

Department of the Navy Comments
The Principal Deputy Assistant Secretary of the Navy for Energy, Installations, and
Environment responded on behalf of the Deputy Chief of Naval Operations, Fleet
Readiness and Logistics. The Principal Deputy partially agreed, stating that the
Department of the Navy is in the process of developing a comprehensive energy strategy
that will include tasks, metrics, and responsibilities for achieving energy goals. The
Principal Deputy also stated that the Department of the Navy recently established a
Deputy Assistant Secretary of the Navy for Energy to align legislative energy goals with
the Secretary of the Navy’s energy goals. The Principal Deputy disagreed with the
recommendation to align resources with legislative goals, stating that it was not within
the purview of the DODIG to prioritize the use of Service funding.

Our Response
Although the Principal Deputy partially agreed with Recommendation 1.a., the comments
are not responsive. As stated in our report, we recognize the steps that the Department of
the Navy, the Navy, and the Marine Corps have taken to improve their energy programs,
to include the development of an overall energy roadmap for the Department of the Navy.
However, the Principal Deputy’s comments only discussed actions at the Department of
the Navy level. The “Department of the Navy’s Energy Program for Security and
Independence,” October 1, 2010 states that energy planning, programming, and
budgeting also need to occur at the component level. Within the Navy, the Chief of
Naval Operations is responsible for all shore energy matters. As directed by the



                                           25
Secretary of the Navy Memorandum “Department of the Navy’s Energy Program for
Security and Independence,” October 1, 2010, the Chief of Naval Operations must
develop strategic plans, baselines, and metrics to outline energy requirements, funding,
profiles, and a critical path to achieve the Secretary of the Navy goals, which are aligned
with and exceed the requirements of legislative energy goals.

We agree that it is not in our purview to prioritize the use of Service funds; however, that
was not the intent of the recommendation. The intent of the recommendation was for the
Chief of Naval Operations to develop a comprehensive energy strategy in response to the
requirements already established by the Secretary of the Navy. This strategy and its
implementation plan should outline the Navy’s plan for allocating resources to meet
energy goals. We request that the Deputy Chief of Naval Operations, Fleet Readiness
and Logistics, provide comments in response to the final report regarding the
development of a shore energy strategy and implementation plan for the Navy.

 2. We recommend that the Deputy Assistant Secretary of the Navy for Energy, in
coordination with the Deputy Chief of Naval Operations, Fleet Readiness and
Logistics; the Commander, Navy Installations Command; the Director, Naval
Facilities Engineering Command Energy Office; and the Assistant Deputy
Commandant for Installations and Logistics (Facilities):

      a. Establish a standard definition of a shore energy project that aligns with
DoD policy; and

       b. Incorporate the definition into Secretary of the Navy energy policy.

Department of the Navy Comments
The Principal Deputy Assistant Secretary of the Navy for Energy, Installations, and
Environment responded on behalf of the Deputy Assistant Secretary of the Navy for
Energy; the Deputy Chief of Naval Operations, Fleet Readiness and Logistics; the
Commander, Navy Installations Command; the Director, Naval Facilities Engineering
Command Energy Office; and the Assistant Deputy Commandant for Installations and
Logistics (Facilities). The Principal Deputy agreed and stated that the Navy and Marine
Corps have developed definitions for energy projects and the Deputy Assistant Secretary
of the Navy for Energy will work with the appropriate Navy and Marine Corps offices to
establish a common definition for the Department of the Navy.

Navy Comments
The Inspector General, Navy Installations Command, on behalf of the Commander, Navy
Installations Command, agreed and stated that the Office of the Chief Naval Operations
Instruction 4100.5E, “Navy Shore Energy Management,” which is currently in the final
draft phase, defines an energy project. Specifically, the Instruction defines an energy
project as “a facility or utility system improvement, regardless of funding source,
conceived and developed for the purpose of increasing energy or water efficiency, energy
security, and sustainability for a facility or group of facilities.”



                                             26
Marine Corps Comments
The Acting Assistant Deputy Commandant for Installations and Logistics (Facilities)
agreed and stated that the Assistant Deputy Commandant for Installations and Logistics
(Facilities) will coordinate with the Deputy Assistant Secretary of the Navy for Energy.

Our Response
The comments from the Principal Deputy Assistant Secretary of the Navy for Energy,
Installations, and Environment; the Inspector General, Navy Installations Command; and
the Acting Assistant Deputy Commandant for Installations & Logistics (Facilities) are
responsive. The actions meet the intent of the recommendation and no further comments
are required.

3. We recommend that the Deputy Chief of Naval Operations, Fleet Readiness and
Logistics, in coordination with the Commander, Navy Installations Command; and
the Director, Naval Facilities Engineering Command Energy Office:

       a. Develop comprehensive policy for planning, prioritizing, selecting, and
executing cost-effective FSRM and MILCON shore energy projects in accordance
with DoD and Federal requirements that includes:

           1. Processes for performing and documenting life-cycle cost analyses;

          2. Standardized methods for estimating project costs and energy savings
during project planning; and

           3. Responsibilities for obtaining incentives for energy projects,
guidelines for claiming incentives, and justifications for saving incentives for future
projects.

        b. Integrate the policy into standard Navy processes for planning,
prioritizing, selecting, and executing FSRM and MILCON energy projects.

Department of the Navy Comments
The Principal Deputy Assistant Secretary of the Navy for Energy, Installations, and
Environment responded on behalf of the Deputy Chief of Naval Operations, Fleet
Readiness and Logistics; the Commander, Navy Installations Command; and the
Director, Naval Facilities Engineering Command Energy Office. The Principal Deputy
agreed and reiterated the below comments provided by the Inspector General, Navy
Installations Command.

Navy Comments
The Inspector General, Navy Installations Command, on behalf of the Commander, Navy
Installations Command, agreed and stated that current Navy guidance and the draft Office
of the Chief Naval Operations Instruction 4100.5E mandate the use of the e-ROI tool as



                                           27
the standardized method for evaluating and prioritizing FSRM and MILCON energy
projects. The Inspector General stated that the e-ROI tool includes standard formats for
documenting LCCAs, project costs, energy savings, and incentives that are applicable to
energy projects. The Inspector General stated that CNIC requires a DD Form 1391 for
each project submittal. In addition, the Inspector General stated that Office of the Chief
of Naval Operations Instruction 11010.20G, “Facilities Projects Instruction,”
October 14, 2005, and NAVFAC P-442, “Economic Analysis Handbook,” October 1993
provide policy and guidance for performing cost estimates and economic analyses for
energy and non-energy projects.

Regarding incentives, the Inspector General stated that the DoD Financial Management
Regulation, Volume 12, Chapter 12 provides guidance for claiming incentives for energy
projects. The Inspector General also stated that local procedures provide guidance for
obtaining incentives, and the region or installation Resource Efficiency Manager is
responsible for identifying and applying for incentives, as outlined in the scope of work
for hiring those officials.

Regarding the integration of policy, the Inspector General also concurred and stated that
the “CNIC N4 Project Development and Assessment Warning Order for Shore Program
Objective Memorandum, Fiscal Years 2014-2018 (POM-14)” and Addendum 8 to that
Memorandum publish the standard processes for planning, prioritizing, selecting, and
executing FSRM and MILCON energy projects.

Our Response
Although the Principal Deputy Assistant Secretary of the Navy for Energy, Installations,
and Environment and the Inspector General, Navy Installations Command, agreed with
the recommendation, their comments are not responsive. The Inspector General, Navy
Installations Command, cited numerous sources of policies and processes regarding
energy projects, whereas the intent of the recommendation was for the Navy to
consolidate policies and guidance for the energy program. We request that the Deputy
Chief of Naval Operations, Fleet Readiness and Logistics, in coordination with the
Commander, Navy Installations Command, and the Director, Naval Facilities
Engineering Command Energy Office, provide comments in response to the final report
to identify specific actions that will provide a comprehensive policy for planning,
prioritizing, selecting, and executing shore energy projects.

We agree that the e-ROI tool provides a standard format for documenting life-cycle
project costs and energy savings. However, it does not document the calculations the
life-cycle cost analyst used to arrive at the costs and savings the analyst input into the
e-ROI tool. In addition, current Navy guidance for e-ROI does not describe standardized
processes for how to calculate the project costs and savings that comprise the LCCA.
Our report highlighted the need for such standardized processes and documented support
for calculations because of errors and inconsistencies we identified in LCCAs. In
addition, while Office of the CNO Instruction 11010.20G and NAVFAC P-442 provide
instructions for completing a DD Form 1391 and performing cost estimates and economic



                                            28
analyses, these policies do not address how to calculate costs and savings that are unique
to energy projects, such as electricity rates, system electricity production, rebate amounts,
maintenance, and equipment replacement costs.

Regarding incentives, the DoD Financial Management Regulation, Volume 12,
Chapter 12 discusses types of allowable energy incentives, how to account for energy
savings, and procedures for using incentives within allowable time frames. However, the
Financial Management Regulation does not describe procedures and responsibilities
related to applying for the incentives or a requirement to justify saving the incentives for
future projects. We also agree that the e-ROI tool provides a standard format for entering
incentive amounts; however, during our audit, officials were unable to provide any local
procedures regarding incentives. In addition, while a scope of work or position
description may identify officials responsible for obtaining incentives, such a document
does not constitute policy.

Finally, the “CNIC N4 Project Development and Assessment Warning Order for Shore
Program Objective Memorandum, Fiscal Years 2014-2018 (POM-14)” provides guidance
for submitting and prioritizing projects as part of DoD’s two-year Planning,
Programming, Budgeting, and Execution process. However, it is not a comprehensive
policy that addresses all areas of planning, selecting, and executing energy projects.

4. We recommend that the Assistant Deputy Commandant for Installations and
Logistics (Facilities):

       a. Develop comprehensive policy for planning, prioritizing, selecting, and
executing cost-effective FSRM and MILCON shore energy projects in accordance
with DoD and Federal requirements that includes:

           1. Processes for performing and documenting life-cycle cost analyses;

          2. Standardized methods for estimating project costs and energy savings
during project planning; and

           3. Responsibilities for obtaining incentives for energy projects,
guidelines for claiming incentives, and justifications for saving incentives for future
projects; and

        b. Integrate the policy into standard Marine Corps processes for planning,
prioritizing, selecting, and executing FSRM and MILCON energy projects.

Department of the Navy Comments
The Principal Deputy Assistant Secretary of the Navy for Energy, Installations, and
Environment agreed and reiterated the below comments provided by the Acting Assistant
Deputy Commandant for Installations and Logistics (Facilities).




                                             29
Marine Corps Comments
The Acting Assistant Deputy Commandant for Installations and Logistics (Facilities)
partially agreed with Recommendation 4.a., and agreed with Recommendation 4.b. The
Acting Assistant Deputy Commandant stated that when selecting and planning
Project P856-M, Marine Corps officials used information published by the Department of
Energy and other reports assessing renewable energy opportunities within the Department
of the Navy. The Acting Assistant Deputy Commandant stated that his office is currently
revising Marine Corps Order P1100.9C to incorporate requirements for project planning
documentation and to address requirements established in the “United States Marine
Corps Expeditionary Energy Strategy and Implementation Plan.” The Marine Corps will
integrate the updated policies into processes for planning, prioritizing, selecting, and
executing FSRM and MILCON energy projects.

Our Response
Although the Acting Assistant Deputy Commandant for Installations and Logistics
(Facilities) did not fully agree, the comments are responsive and the actions meet the
intent of the recommendations. No further comments are required.

5. We recommend that the Naval Facilities Engineering Command Southwest
Utilities and Energy Manager:

       a. Determine the life-cycle cost effectiveness of implementing meters and
       monitoring contracts to obtain California Solar Initiative rebates at each
       applicable site for Project RM09-1440, and

       b. Develop and implement a plan to acquire meters, monitoring contracts,
       and rebates for systems where rebate funds are available and the economic
       return of the rebate exceeds the cost of the system upgrades.

Department of the Navy Comments
The Principal Deputy Assistant Secretary of the Navy for Energy, Installations, and
Environment responded on behalf of the Naval Facilities Engineering Command
Southwest Utilities and Energy Manager. The Principal Deputy agreed with the
recommendation and stated that NAVFAC Southwest officials are assessing the
economic value of pursuing California Solar Initiative rebates in light of current program
conditions and will pursue rebates for the systems that promise a return over the cost of
implementing program requirements. The Principal Deputy explained that two of the
three California Solar Initiative program territories no longer have funding for non-
residential systems, which means there is no assurance that any new applications in those
territories will receive funding. In addition, the Principal Deputy stated that NAVFAC
Southwest will need to invest an additional $160,000 for meters and third party
monitoring systems, in order for the PV systems to meet the eligibility requirements to
receive the incentives.




                                            30
Our Response
The Principal Deputy’s comments are partially responsive. We agree that NAVFAC
Southwest officials should not invest additional funds for systems located in program
territories that have no available CSI rebate funds. However, four of the PV systems that
we reviewed are located at Naval Weapons Station Seal Beach and Naval Base Ventura
County, which are in the Southern California Edison program territory. According to the
CSI Web site, Southern California Edison still has CSI rebate funds available for
non-residential customers. However, NAVFAC Southwest officials have not determined
the cost-benefit of implementing meters and monitoring contracts at Naval Weapons
Station Seal Beach and Naval Base Ventura County in exchange for available CSI
rebates. Using costs for meters and monitoring contracts provided by NAVFAC
Southwest officials, 14 we calculated that NAVFAC Southwest could save between
$505,759 and $791,580 15 by obtaining rebates for the four PV systems at Naval Weapons
Station Seal Beach and Naval Base Ventura County.

Although two CSI program territories stopped providing rebates for Government
systems, NAVFAC Southwest officials should have requested the rebates when the
projects were completed and should have considered the rebate eligibility requirements
during project planning. These situations serve as an example and emphasize the need for
the Navy to develop and establish policy that addresses responsibilities and procedures
for obtaining incentives, as discussed in Recommendation 3.a.

The PV projects at Navy installations in California were completed between February
and June 2010; however, as stated in our report, NAVFAC Southwest officials decided
that saving these rebates for future projects would provide a better benefit to the
Government. Applying for the rebates when the projects were completed and the rebates
were still available could have allowed the Government to potentially recover
$2.17 million of the investment cost.

We understand that the PV systems need to meet specific requirements to be eligible to
receive the incentives, such as alternate metering and third-party monitoring; however,
NAVFAC Southwest officials should have been aware of these requirements during the
planning phase of Project RM09-1440 and included them as contract requirements. Even
though the PV systems would not meet the requirements needed to be eligible to receive
the rebates, NAVFAC Southwest officials included utility rebates on the LCCAs for six
of the nine project locations.

We request that the Navy provide comments to the final report in response to our revised
recommendation. Specifically, NAVFAC Southwest officials should complete life-cycle
cost analyses related to acquiring rebates as soon as possible, especially for projects in


14
  We did not verify the accuracy of the metering and monitoring contract costs provided by NAVFAC
Southwest officials.
15
  The savings will depend on the CSI rebate step. The CSI program has ten steps, and rebates decrease as
the program progresses through the steps. As of August 2011, the program was in step eight.


                                                   31
program territories that still have CSI rebate funding available for non-residential
projects. In addition, NAVFAC Southwest officials should develop and implement a
plan to immediately pursue available rebates in situations where additional system
investments and spending will be offset by the amount of the rebate.

6. We recommend that the Director, Shore Readiness Division (N46), Office of the
Chief of Naval Operations, Fleet Readiness and Logistics, in coordination with
Commander, Navy Installations Command, review the e-ROI tool to ensure it
adheres to life-cycle cost-effectiveness requirements in legislation and Federal and
DoD criteria for energy projects. If the tool does not adhere to these requirements,
we recommend that the Director, Shore Readiness Division, modify e-ROI so that
only projects that are life-cycle cost-effective receive funding.

Department of the Navy Comments
The Principal Deputy Assistant Secretary of the Navy for Energy, Installations, and
Environment responded on behalf of the Director, Shore Readiness Division (N46),
Office of the Chief of Naval Operations, Fleet Readiness and Logistics; and the
Commander, Navy Installations Command. The Principal Deputy agreed and stated that
the e-ROI tool complies with Federal Energy Management Program life-cycle costing
methods and procedures set forth in 10 Code of Federal Regulations 436, subpart A,
“Methodology and Procedures for Life-Cycle Cost Analyses,” November 20, 1990.
Further, the Principal Deputy stated that only projects that are life-cycle cost-effective
receive funding.

Navy Comments
The Inspector General, Navy Installations Command, on behalf of the Commander, Navy
Installations Command, agreed and stated that the financial benefit calculations within
the e-ROI tool utilize a standard format mandated by the Energy Policy Act of 1992 to
assess the long-term cost-effectiveness of submitted projects.

Our Response
Although officials agreed with the recommendation, their comments are not responsive.
While the financial benefit calculations within the e-ROI tool may comply with Federal
requirements, e-ROI only applies a weight factor of 39 percent to those financial benefits.
Non-financial factors comprise 61 percent of the decision, and some of these factors are
scored using a subjective rating scale. While non-financial factors are important
considerations in the project selection process, we agree with the Principal Deputy that
only projects that are life-cycle cost-effective should receive funding. Thus, projects that
are not life-cycle cost-effective should not be considered for funding, regardless of their
non-financial attributes. The e-ROI tool should enable Navy officials to identify life-
cycle cost effective projects and then make funding decisions on those projects
considering financial and non-financial factors. The DoD Energy Manager’s Handbook
supports this position and states that cost effectiveness is the overriding criteria behind
Federal investments in energy efficiency. The Handbook also states that an installation is
not required to meet energy-reduction goals if it cannot do so cost-effectively.



                                            32
We request that the Director, Shore Readiness Division (N46), Office of the Chief of
Naval Operations, Fleet Readiness and Logistics, and the Commander, Navy Installations
Command, provide comments in response to the final report identifying specific actions
to ensure that the use of the e-ROI tool will only permit projects with at least a
1.0 savings-to-investment ratio to be funded, which is in accordance with energy
legislation and policies.

7. We recommend that the Principal Deputy Assistant Secretary of the Navy for
Energy, Installations, and Environment; the Principal Deputy Under Secretary of
Defense (Comptroller); the Deputy Under Secretary of Defense (Installations and
Environment); the Deputy Chief of Naval Operations, Fleet Readiness and
Logistics; and the Assistant Deputy Commandant for Installations and Logistics
(Facilities):

       a. Review the actions of officials responsible for planning and selecting PV
projects that were not cost-effective, which resulted in Recovery Act funds not
recovered; and

       b. Based on that review, determine whether any administrative actions are
necessary.

Department of the Navy Comments
The Principal Deputy Assistant Secretary of the Navy for Energy, Installations, and
Environment responded on behalf of the Deputy Chief of Naval Operations, Fleet
Readiness and Logistics, and the Assistant Deputy Commandant for Installations and
Logistics (Facilities). The Principal Deputy disagreed with our conclusion that Recovery
Act energy projects had to be cost-effective 16 and, as a result, also disagreed with the
original recommendations for the Navy and Marine Corps to conduct an administrative
review to identify individuals who disregarded project planning requirements and
selected projects that were not cost-effective. The Principal Deputy stated that Navy and
Marine Corps staff developed and submitted valid projects consistent with the guidance
and time constraints they were given. The Principal Deputy stated that pursuing
administrative action against individuals at lower levels in the chain of command would
be misguided, unproductive, and unfair when there is disagreement over whether the
projects had to be cost-effective.

Marine Corps Comments
The Acting Assistant Deputy Commandant for Installations and Logistics (Facilities)
disagreed with the recommendation, stating that Marine Corps officials selected Project
P856-M in accordance with Federal legislation, DoD policy, and life-cycle cost analysis




16
  See Appendix F, page 58 for a summary of the Department of the Navy’s comments on the finding and
our response.


                                                 33
guidance. The Acting Assistant Deputy Commandant stated that the effort by Camp
Pendleton officials contributes to the achievement of Federally mandated renewable
energy goals and demonstrates excellence in managing limited resources.

Our Response
The comments are not responsive. This report clearly outlines the legislation, Executive
Orders, and Federal and DoD policies that require energy projects to be cost-effective.
The comments from the Principal Deputy Assistant Secretary of the Navy for Energy,
Installations, and Environment and the Acting Assistant Deputy Commandant for
Installations and Logistics (Facilities) do not provide evidence to the contrary. Therefore,
we maintain our position that Navy and Marine Corps officials did not properly plan and
select Recovery Act PV projects and that $25.1 million of the $50.8 million investment
cost of the systems will not be recovered.

We also disagree that Navy and Marine Corps staff developed and submitted valid
projects consistent with the guidance and time constraints they were given. During our
interviews with officials from DoD, Department of the Navy, Navy, and Marine Corps
organizations (see Appendix A for the listing of these), officials were only able to
provide one document which they relied upon as direction for selecting Recovery Act
projects. This document was a memorandum issued on February 23, 2009 by the
Principal Deputy Under Secretary of Defense (Comptroller) and the Deputy Under
Secretary of Defense (Installations and Environment). This memorandum directed the
Services to comply with the Recovery Act and Office of Management and Budget
Memorandum M-09-10 when selecting projects. Office of Management and Budget
Memorandum M-09-10, “Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009,” February 18, 2009, stated that the Recovery Act does not
automatically provide Federal agencies with a waiver of existing legislative or
administrative requirements. Therefore, Navy and Marine Corps officials did not adhere
to the guidance they were provided when they selected energy projects for the
Recovery Act.

Since Navy and Marine Corps officials did not comply with Recovery Act project
selection instructions and energy legislation and policies, we believe administrative
reviews are necessary and will improve the integrity of the energy program’s control
environment. According to Government Accountability Office publication, “Standards
for Internal Control in the Federal Government,” November 1999, management is
responsible for good internal control and a positive control environment is the foundation
for all other control standards. In addition, we believe that administrative reviews are in
line with Recovery Act requirements of transparency and accountability. By performing
administrative reviews and initiating appropriate administrative actions, Navy and Marine
Corps management will improve the control environment of the energy program by
showing that deviation from legislative requirements for cost-effectiveness is not an
acceptable practice. Without such reviews, management risks sending the message that it
agrees with selecting and implementing energy projects that are not cost-effective, which
is contrary to the legislation and Executive Orders governing the energy program. Based



                                            34
on the Government Accountability Office’s internal control standards, failing to hold
personnel accountable may encourage Navy and Marine Corps officials to select future
energy projects that are not cost-effective.

Based on management comments and a subsequent meeting, we revised and consolidated
our original recommendations. We request that the Principal Deputy Assistant Secretary
of the Navy for Energy, Installations, and Environment; the Principal Deputy Under
Secretary of Defense (Comptroller); the Deputy Under Secretary of Defense (Installations
and Environment); the Deputy Chief of Naval Operations, Fleet Readiness and Logistics,
and the Assistant Deputy Commandant for Installations and Logistics (Facilities) provide
comments in response to the final report on this new recommendation regarding the need
for administrative reviews.




                                          35
Appendix A. Scope and Methodology
We conducted this performance audit from November 2009 through August 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our audit scope encompasses Recovery Act Projects RM09-1440, RM09-1363, and
P856-M. We reviewed documentation including the official contract files,
DD Form 1391s, cost estimates, economic analyses, and life-cycle cost analyses, as well
as contractor proposals and cost data. We reviewed Federal, DoD, Navy, and Marine
Corps policy and guidance related to construction and energy projects, and we compared
this policy and guidance with our audit results. We also reviewed energy legislation,
annual DoD and Department of the Navy energy reports, and energy strategy documents.
We interviewed personnel from the following organizations:

   •   Office of the Under Secretary of Defense (Comptroller)
   •   Office of the Deputy Under Secretary of Defense for Installations and
       Environment
   •   Office of the Assistant Secretary of the Navy (Energy, Installations, and
       Environment)
   •   Office of the Deputy Assistant Secretary of the Navy for Energy
   •   Office of the Deputy Chief of Naval Operations for Fleet Readiness and Logistics
   •   Headquarters, United States Marine Corps, Deputy Commandant for Installations
       and Logistics
   •   Marine Corps Expeditionary Energy Office
   •   Commander, Navy Installations Command
   •   Navy Facilities Engineering Command (Operations and Energy Offices)
   •   Navy Facilities Engineering Command Engineering Service Center
   •   NAVFAC Southwest
   •   NAVFAC Hawaii
   •   Camp Pendleton Energy Office

Use of Computer-Processed Data
We relied on computer-processed data to determine whether Navy and Marine Corps
officials accurately completed LCCAs for their projects and to perform our own LCCAs.
We obtained or calculated the following information for LCCAs:

   •   PV project costs (excluding roof replacements);
   •   Government supervision, inspection, and overhead cost;
   •   PV system residual value;
   •   Inverter replacement year and associated costs;


                                           36
     •   Site electricity costs;
     •   PV system electricity generation;
     •   Utility rebate amounts;
     •   Maintenance costs;
     •   Discount rates, inflation rates, and energy-escalation rates; and
     •   LCCA study periods.

We concluded that the data we used were sufficiently reliable by performing direct data
tests using information from the following sources:

     •   Contracts and modifications (some were obtained from Electronic Document
         Access);
     •   Requests for proposal;
     •   Contractor price schedules;
     •   Contractor technical proposals;
     •   Business clearance memoranda;
     •   Navy and Marine Corps LCCAs;
     •   Spreadsheets of contractor prices, roof sizes, electricity rates, rebates, and other
         documentation from Navy and Marine Corps officials;
     •   Roof condition data from the Facilities Condition Assessment Program; and
     •   PV system technical data and various cost data published on Federal Web sites
         (e.g., Department of Energy and the National Renewable Energy Laboratory) and
         non-Federal Web sites (e.g., utility companies and the California Solar Initiative).

One example of a direct data test we performed was verifying that the amount of PV
electricity production stated in contractor technical proposals was reasonable. We did
this by calculating the efficiency of PV systems. PV system efficiency is the electricity
production of the system divided by the product of the project site’s solar radiance, 17 the
size of the PV system, and the number of days in a year. We gathered the information
needed to calculate PV system efficiency from contracts, contractor technical proposals,
business clearance memoranda, and Federal and non-Federal Web sites. For 11 of
12 project sites, we calculated that PV systems were, on average, about 69 percent
efficient. Because the system efficiency of all but 1 project site were very close to the
average, we concluded that the electricity production figures stated in 11 contractor
technical proposals were reliable to use for LCCAs. The electricity production figures
from one contractor proposal showed that the PV systems on two buildings were more
than 100 percent efficient, whereas the other three buildings at the project site were
around 69 percent efficient. We concluded that we could rely upon the contractor
technical proposal’s electricity production at those three buildings, and we adjusted the
electricity production of the other two buildings before developing LCCAs.



17
  Solar radiance is an estimate of the number of hours of sunlight per day that a PV panel may be able to
collect. The National Renewable Energy Laboratory developed a map that shows solar radiance values for
the United States.


                                                   37
Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, personnel in the Quantitative
Methods and Analysis Division of the DoD Office of Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. Quantitative Methods and Analysis
Division personnel selected most audit projects and locations using a modified Delphi
technique, which allowed them to quantify the risk based on expert auditor judgment and
other quantitatively developed risk indicators. Quantitative Methods and Analysis
Division personnel selected 83 projects with the highest risk rankings.

Quantitative Methods and Analysis Division personnel did not use classical statistical
sampling techniques that would permit generalizing results to the total population
because there were too many potential variables with unknown parameters at the
beginning of this analysis. The predictive analytic techniques employed provided a basis
for logical coverage not only of Recovery Act dollars being expended, but also of types
of projects and types of locations across the Military Services, Defense agencies,
National Guard units, and public works projects managed by the U.S. Army Corps of
Engineers.

Prior Coverage
The Government Accountability Office (GAO), the Department of Defense Inspector
General (DoD IG), and the Military Departments have issued reports and memoranda
discussing DoD projects funded by the Recovery Act. You can access unrestricted
reports at http://www.recovery.gov/accountability. In addition, during the last 5 years,
GAO has issued two reports discussing DoD’s progress toward legislative energy goals.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.

GAO
GAO Report No. GAO-10-104, “DoD Needs to Take Actions to Address Challenges in
Meeting Federal Renewable Energy Goals,” December 18, 2009

GAO Report No. GAO-10-22, “Federal Energy Management – Agencies are Taking
Steps to Meet High-Performance Federal Building Requirements,” October 30, 2009




                                           38
Appendix B. Projects Reviewed
Project RM09-1440, PV Systems at Navy Installations in
California
Project RM09-1440, completed in June 2010, installed photovoltaic roof systems at nine
locations in California. To execute this project, NAVFAC Southwest personnel awarded
nine task orders totaling $30.5 million to three contractors. Table B-1 shows the total
contract cost, number of buildings, system size, and the annual electricity production
output for the nine locations that received PV systems.

                 Table B-1. PV Systems at Navy installations in California
                                                                                           Annual
                                                                          System          Electricity
                                    Contract          Number of
          Location                                                          Size          Production
                                     Cost             Buildings
                                                                        (kilowatts)       (megawatt
                                                                                            hours)1
    Naval Base Point Loma           $4,165,711              7               449.340             649.891
    Naval Weapons Station
                                    $2,359,127              2               258.720             370.830
    Seal Beach
    Naval Base Coronado             $3,924,266              3               451.584             674.544
    Naval Support
                                    $2,617,100              3               181.440             262.587
    Detachment Monterey
    Naval Base Ventura
                                    $4,877,000              2               588.000             859.067
    County
    Naval Air Facility El                                                                                   2
                                    $2,971,027              5               201.600            325.406
    Centro
    Naval Air Weapons
                                    $4,147,127              3               453.600             741.043
    Station China Lake
    Naval Air Station
                                    $2,866,076              5               213.375             314.040
    Lemoore
    Naval Base San Diego            $2,617,100               3              231.840             340.235
    Total                          $30,544,534              33            3,029.499           4,537.643
1
 This number is based on contractor proposals, and it shows estimated electricity production in the first
year of operation.
2
  We adjusted this number because the estimate from the contractor proposal appeared to be overstated,
based on the system size.




                                                     39
Project RM09-1363, PV Systems at Navy Installations in
Hawaii
Project RM09-1363 will install photovoltaic systems on the rooftops of various facilities
at Naval Station Pearl Harbor in Oahu, Hawaii, and at the Pacific Missile Range Facility
in Kauai, Hawaii. To execute this project, NAVFAC Hawaii awarded two task orders
totaling more than $22 million to two contractors. The project will be completed in
July 2011. Table B-2 shows the total contract cost, number of buildings, system size, and
the annual electricity production output for the two locations that received PV systems.

                  Table B-2. PV Systems at Navy Installations in Hawaii
                                                                                          Annual
                                                                         System          Electricity
                                    Contract         Number of
          Location                                                         Size          Production
                                     Cost            Buildings
                                                                       (kilowatts)       (megawatt
                                                                                           hours)1
    Pacific Missile Range
                                    $6,791,916             10                 787.8               1,182
    Facility
    Naval Station Pearl                          2
                                  $15,594,449              5                2,470.0               3,460
    Harbor
    Total                          $22,386,365             15               3,257.8               4,642
1
 This number is based on contractor proposals, and it shows estimated electricity production in the first
year of operation.
2
 This amount includes a contract modification for $365,894, which was not funded by the Recovery Act.
We did not include this amount in our LCCA analysis.



Project P856-M, PV System at Marine Corps Base Camp
Pendleton, California
Project P856-M, completed in January 2011, installed a photovoltaic facility on the Box
Canyon inactive landfill at Marine Corps Base Camp Pendleton, California. NAVFAC
Southwest awarded the contract for this project in December 2009 to Synergy Electric
Company, Inc. for approximately $9.4 million. 1 According to the contractor’s proposal,
the system will be 1,480.5 kilowatts in size, and it will produce 2,270.473 megawatt
hours of electricity in its first year of operation.




1
 NAVFAC Southwest subsequently issued a contract modification for $12,711. We did not include this
amount in our LCCA analysis.

                                                     40
Appendix C. Life-Cycle Cost Analysis Errors
and Calculations of Project Savings
We identified errors in the Navy and Marine Corps LCCAs for the three Recovery Act
PV projects we reviewed. We also calculated project investment cost, which is the cost
to implement the PV system 2 minus the residual value of the PV system after 20 years. 3
The investment cost of the three PV projects we reviewed was $50.8 million. This
appendix presents additional information about LCCAs, our analysis, and how we
calculated project savings. We rounded all dollar values to the nearest tens of thousands
for consistency.

Factors to Consider in Preparing LCCAs
The DoD Unified Facilities Criteria 3-400-01 states that LCCAs should be prepared for
energy projects. An LCCA is an economic method of project evaluation in which all
costs arising from owning, operating, maintaining, and ultimately disposing of a project
are considered potentially important to that decision. Handbook 135 states that the
primary reason for an LCCA is to demonstrate that a project’s operational savings are
sufficient to justify its additional investment cost. For example, when energy projects
increase the initial capital cost of a new building or when energy projects result in retrofit
costs for an existing building, an LCCA can determine whether these projects are
economically justified based on reduced energy costs and other factors over the project
life.

LCCAs use a savings-to-investment ratio to describe the cost-effectiveness of a project.
According to 10 Code of Federal Regulations sec. 436.18 (1996), energy projects, such as
PV projects, are cost-effective if the savings-to-investment ratio is estimated to be greater
than one, which generally means that the future energy costs saved by implementing the
project exceed its investment costs. Handbook 135 outlines the factors officials must
consider when preparing an LCCA. In general, these factors include the study period,
initial investment costs, energy-related benefits, maintenance costs, equipment
replacement costs, and residual value. These items are defined by Handbook 135.

       • The study period is the time over which the costs and benefits related to a capital
          investment decision are of interest to the investor. The system life is an
          appropriate study period for most LCCAs of Federal energy projects.
       • Initial investment costs are acquisition-related, including all costs related to
          planning, design, purchase, and construction.




2
    The cost to implement the PV system includes Government supervision, inspection, and overhead.
3
 Handbook 135 states that the study period for a life-cycle cost analysis generally is the system service life.
We analyzed the costs and benefits of implementing PV systems over a 20-year period because each
system had at least a 20-year warranty.

                                                      41
     • The energy-related benefits of a project include its annual energy savings and
       corresponding reduction in utility bills. Energy-related benefits may also include
       utility rebates obtained through rebate programs.
     • Maintenance costs include recurring costs to ensure the system operates correctly
       for as long as possible.
     • Equipment replacement costs are for replacing system components having a
       useful life shorter than that of the study period.
     • Residual value exists when a system’s expected life exceeds the life of the study
       period.

Handbook 135 also requires officials to consider discount rates, inflation, and energy
escalation rates for LCCAs. These factors are built into the National Institute for
Standards and Technology Building Life-Cycle Cost computer program, which we used
to perform LCCAs and calculate savings-to-investment ratios.

Navy and Marine Corps LCCAs
Navy and Marine Corps officials prepared LCCAs for each of the 12 project sites at
different stages of project completion. However, only officials at Camp Pendleton
prepared an LCCA before Navy and Marine Corps officials selected Recovery Act
projects. Additionally, based on the documentation we received, officials did not prepare
LCCAs for project RM09-1363 in Hawaii or Project RM09-1440 in California until after
the requests for proposals were solicited. 4

Comprehensive Example of LCCA Errors and Corrected
Calculations for One Site in California
We reviewed the LCCAs for the 12 project sites and identified errors related to initial
investment costs, energy benefits, utility rebates, maintenance costs, equipment
replacement costs, and residual value. To more thoroughly demonstrate the errors we
identified, our corrections to the calculations, and the overall impact on the project
savings, we provided a comprehensive example of LCCA errors for one project site in
California. To avoid identifying the project site directly, we will simply refer to it as “the
site” for this example. Our discussion will address each LCCA factor outlined in
Handbook 135.

NAVFAC Southwest officials prepared an LCCA for one site for Project RM09-1440.
The LCCA for the site showed a 1.32 savings-to-investment ratio and estimated monetary
benefits of $0.96 million over a 20-year study period. We calculated that the errors on
the LCCA for the site overstated project savings by $2.65 million. We estimated that the
savings-to-investment ratio for the site was 0.45 and that $1.68 million of the investment



4
  The business clearance memoranda we obtained for Project RM09-1440 included savings-to-investment
ratios. This indicates that LCCAs were likely performed before the contract award; however, we were
unable to obtain detailed calculations or explanations of the costs and savings used to support the savings-
to-investment ratios in the business clearance memoranda.

                                                     42
costs would not be recovered during the 20-year study period. We completed our
calculations using the Building Life-Cycle Cost program as required by the Unified
Facilities Criteria 3-400-01.

Study Period. Navy officials used a 20-year study period for the LCCA for the PV
project at the site. We agreed that this study period was appropriate because all of the PV
systems we reviewed obtained at least a 20-year warranty on PV panels. In addition,
although the projects we reviewed were not part of ECIP, the DoD policy for ECIP
renewable energy projects, such as PV projects, states that the study period should be
20 years.

Initial Investment Costs. In this report, the term “initial investment costs” differs from
the term “investment costs.” Specifically, initial investment costs include contract costs
for the PV system and Government supervision, inspection, and overhead. In contrast,
investment costs include the initial investment costs but subtract the residual value
remaining for PV systems with a warranty that exceeds the 20-year study period.

Navy officials should have included an additional $90,000 of initial investment costs on
the LCCA they prepared for the site. The understatement of initial investment costs
occurred because of two errors. First, Navy officials did not accurately account for roof
replacement costs. Based on contractor cost data we obtained, Navy officials should
have excluded from the initial investment costs $50,000 more in roof replacement costs.
Second, Navy officials estimated their supervision, inspection, and overhead rate at
4 percent even though Office of the Chief of Naval Operations Instruction 11010.20G,
“Facilities Projects Instruction,” October 14, 2005, requires a supervision, inspection, and
overhead rate of 8 percent. Navy officials were unable to provide documentation to
justify the use of a lower supervision, inspection, and overhead rate on their LCCA. Had
Navy officials used the correct rate, the LCCA would have included an additional
$0.14 million for supervision, inspection, and overhead costs. Table C-1 shows the initial
investment costs Navy officials used on their LCCA for the site and our adjustments to
the contract costs and supervision, inspection, and overhead costs.

      Table C-1. Navy LCCA Errors for Initial Investment Costs for the Site
                                                         Amount Used in the
                          Amount from      Auditor
 Initial Investment Cost                                LCCA Performed by
                          Navy LCCA      Adjustment
           Items                                         DoD OIG Auditors
                           (millions)     (millions)
                                                              (millions)
 Contract Costs for
 Implementing PV                 $ 3.56        -$ 0.05                  $ 3.51
 System
 Supervision, Inspection,
                                   0.14       + 0.14                        0.28
 and Overhead
           Totals                $ 3.70       +$ 0.09                   $ 3.79




                                            43
Utility Costs Reduced by Operating PV Systems. The PV systems we reviewed
produce electricity and will, therefore, reduce Department of Navy utility costs for
electricity. The reduction of utility costs depends on the amount of electricity each PV
system generates and the corresponding utility cost for electricity at each project site. For
example, if a PV system generates 1,000 megawatt-hours of electricity during a year, and
the cost of electricity is $100 per megawatt-hour, then the PV system will reduce
electricity costs for that site by $100,000 during that year. Discount factors, which
convert amounts of money realized in the future into their present-value equivalent, must
also be applied to account for the time-value of money. Since our LCCAs account for
costs and savings over a 20-year period, it appears that utility savings over the duration of
the LCCA would be $2 million ($100,000 times 20 years). However, the $2 million in
future savings does not account for the time-value of money because a dollar can buy
more now than it will 10 years from now. Therefore, we must apply a discount rate to
calculate the current value of future savings.

We calculated that Navy officials overstated utility cost savings on the LCCA by
$1.92 million. First, Navy officials did not account for degradation in performance as the
PV system ages. The contractor’s technical proposal included the total amount of
electricity the system should produce over 25 years, which indicated that the system
would produce less electricity as it aged. However, for all 20 years of their LCCAs,
Navy officials used higher electricity production figures than those on the contractor’s
proposal for the first year. As a result, Navy officials overstated the amount of electricity
the system would generate over 20 years by 1,551 megawatt-hours. Second, Navy
officials overstated the cost of electricity for the site at $260 per megawatt-hour. We
determined that the actual cost was approximately $117 per megawatt-hour. When we
asked about this discrepancy, Navy officials acknowledged that they had incorrectly
calculated utility rates. In addition, while not an error, it is important to note that DoD
and the National Institute for Standards and Technology use slightly different discount
factors for LCCAs. According to Handbook 135, either source’s discount factors are
valid for performing LCCAs. We used discount factors published by the National
Institute for Standards and Technology because they are integrated into the Building Life-
Cycle Cost computer program. Table C-2 shows the information Navy officials used to
calculate reductions in utility costs by installing PV systems at the site and our
adjustments.




                                             44
              Table C-2. Navy LCCA Errors for Calculating Reductions in
                                Utility Costs at the Site
                           Electricity                                      Total
                                             Utility Cost for
                        Generated by PV                                 Discounted
                                                Electricity   Discount
                          System Over                                   Reduction in
                                               (dollars per    Factor
                            20 Years                                    Utility Costs
                                             megawatt-hour)
                        (megawatt-hours)                                 (millions)
Navy LCCA
                                          17,740               $ 260    .726            $ 3.35
Calculations
Auditor
                                          -1,551               -$ 143
Adjustments
DoDIG LCCA
                                          16,189               $ 117    .752            $ 1.43
Calculation1
   Total Amount Overstated                                                              $ 1.92
1
 This row does not calculate accurately because of rounding.

Utility Rebates. Some of the project sites in California were eligible for utility rebates
under the CSI program. This program offered rebates to customers who implement solar
energy systems. The amounts of the rebate varied depending on the energy generated by
the system and decreased as more rebates were issued.

The PV system implemented at the site was eligible for a CSI utility rebate of
$0.59 million. Although Navy officials included a rebate on their LCCA for the site, and
the project at that site was completed in February 2010, Navy officials have not applied
for the rebate. Additionally, as of January 2011, the State of California temporarily
suspended the rebate program. Therefore, we did not include utility rebates in our
calculations of project savings.

Maintenance Costs. According to the winning contractor’s technical proposal for the
PV system at the site, the contractor will provide 1 year of free maintenance. However,
the contractor’s technical proposal also stated that after the first year, maintenance will
cost $1,471 annually. Despite the information in the technical proposal, Navy officials
included no maintenance costs in their LCCA for the site. We adjusted the Navy LCCA
to include the discounted amount of $21,000 in maintenance costs.

Inverter Replacement Costs. Inverters convert direct current electricity into electricity
used for facilities. According to Marine Corps officials, inverters typically last 10 years
and may need replacing during the useful life of the PV system. Navy officials did not
include inverter replacement costs in the 20-year LCCA for the site. However, since the
Navy obtained a 20-year warranty on the inverters for this system, we agreed that not
including inverter replacement costs on the LCCA for that site was appropriate. We did
not make adjustments to the Navy LCCA for inverter replacement costs.




                                                   45
Residual Value of PV Systems. Some of the project sites we reviewed had warranties
on the PV panels that exceeded the 20-year study period. For these project sites, it would
be unfair to compare the energy benefits achieved by a PV system over 20 years with its
complete contract cost because the PV system will likely generate additional benefits
after the 20-year study period. In accordance with Handbook 135, we calculated a
residual value for PV systems with warranties exceeding 20 years. The residual value
ensures that energy benefits over 20 years are compared with contract costs applicable to
those same 20 years. For example, if a system’s contract cost was $10 million and it had
a warranty for 25 years, we compared 80 percent (20-year study period divided by
25-year warranty) of the system’s contract cost, or $8 million, with its energy benefits
over 20 years. This would result in a residual value of 20 percent of the contract costs.

Navy officials should not have included $11,000 in the residual value on the LCCA for
the site. Although Navy officials applied the correct residual value rate of 20 percent
(because their system had a 25-year warranty), Navy officials based the residual value
calculation on incorrect contract costs for implementing the PV system (see Table C-1 for
corrected contract costs). We determined that the appropriate residual value for the PV
system was $0.70 million, which is 20 percent of the $3.51 million contract cost.

Impact of LCCA Errors on the Project Savings of the Site. Our adjustments to the
errors on the LCCA prepared by Navy officials for the PV project at the site showed the
Navy will not recover an estimated $1.68 million of the investment costs for the PV
system. The LCCA prepared by Navy officials for the PV system at the site showed that
$0.96 million of monetary benefits would be achieved by implementing the project.
Table C-3 is a summary of our adjustments to the costs and savings needed to prepare an
accurate LCCA for the site and shows the total impact of LCCA errors on estimated
project savings. As Table C-3 shows, the LCCA for the site originally showed the Navy
would recover $0.96 million by implementing the PV system at the site. However, with
the auditor adjustments, we calculated that the Navy would not recover more than
$1.68 million.




                                           46
       Table C-3. Project Costs and Savings Resulting from Auditor Adjustments to
                          Navy Errors on the LCCA for the Site
                                     Project Costs
                                                                             Project Costs and
                                     and Savings            Auditor
      LCCA Cost or Savings                                                 Savings From LCCAs
                                      from Navy           Adjustment
          Category                                                             with Auditor
                                        LCCA               (millions)
                                                                           Adjustments (millions)1
                                       (millions)
    Contract Costs for
                                            - $ 3.56            + $ 0.05                  - $ 3.51
    Implementing PV System
    Supervision, Inspection,
                                            - $ 0.14            - $ 0.14                  - $ 0.28
    and Overhead Cost
    Residual Value                         + $ 0.71             - $ 0.01                  + $ 0.70
      Total Investment Costs               - $ 2.99             - $ 0.10                  - $ 3.09
    Inverter Replacement
                                            - $ 0.00              $ 0.00                  - $ 0.00
    Costs
    Maintenance Costs                      - $ 0.00             - $ 0.02                  - $ 0.02
    Utility Savings                        + $ 3.34             - $ 1.92                  + $ 1.43
    Utility Rebates                        + $ 0.61             - $ 0.61                  + $ 0.00
      Future Costs and
                                            +$ 3.95             -$ 2.55                   +$ 1.41
      Savings
    Total Costs Recovered or
                                            +$ 0.96             - $ 2.65                  - $ 1.68
    Not Recovered
1
    Some rows and columns do not sum accurately because of rounding.

Based on the adjusted initial investment costs and residual value, we determined that the
“investment cost” of the PV system at the site was $3.09 million ($3.79 million initial
investment minus $0.70 million residual value). We then calculated the cost-
effectiveness of this project by subtracting the $1.41 million of costs estimated to be
recovered by implementing this PV system (utility savings of $1.43 million minus
$0.02 million in maintenance costs) from the $3.09 million investment cost. Using this
calculation, we estimated that over $1.6 million of project investment costs would not be
recovered ($3.09 million investment cost minus $1.41 million recovered).

Impact of Errors on Detailed LCCAs Prepared by Navy and Marine
Corps Officials and Summary of Adjusted LCCAs
The table on page 15 details the overall results of the inaccuracies for all 12 project sites
we reviewed. Table C-4 is a summary of the auditor adjustments to the costs and savings
from Navy and Marine Corps LCCAs for the projects we reviewed.




                                                     47
                   Table C-4. Auditor Adjustments Made to Inaccurate
                  Navy and Marine Corps LCCAs for Three PV Projects




1
 Dollar values are in millions and are appropriately discounted.
2
 We did not consider this an error because the Camp Pendleton LCCA was completed before contract
award and was based on a cost estimate. The adjustment, which improves project savings, is based on
actual contract costs.




                                                  48
Auditor-Calculated Project Savings
Because Navy and Marine Corps LCCAs contained errors, we performed our own
LCCAs using the Building Life-Cycle Cost program. We also determined project
savings based on project investment costs and the total discounted savings for each
project. For example, if a project had an investment cost of $5 million and discounted
savings of $3 million, then the project was not cost-effective because the Navy would not
recover $2 million of the investment costs. The investment cost was the amount to
implement the PV system, including Government supervision, inspection, and overhead
minus the residual value of the PV system at the end of the 20-year LCCA study period.
Table C-5 shows our calculations of project savings and investment costs for each of the
12 project sites we audited.

          Table C-5. Calculation of Project Savings and Investment Costs Not
                        Recovered for the 12 PV Project Sites




1
 Some columns and rows do not sum properly because of rounding.
2
 This savings-to-investment ratio is negative because of future costs for replacing inverters and performing
maintenance. Because a negative savings-to-investment ratio would indicate that the Navy would not
recover more than it has spent, we estimated that all investment costs for the PV system at Naval Air
Station Lemoore will not be recovered.



                                                    49
Appendix D. Department of the Navy Energy
Program Organization
The Department of the Navy is responsible for the Navy and Marine Corps energy
programs. The Assistant Secretary of the Navy for Installations and Environment was the
executive agent responsible for the Department of the Navy’s energy program. In
March 2010, the office was renamed the ASN(EI&E) because the Department of the
Navy created the office of the Deputy Assistant Secretary of the Navy for Energy. The
Deputy Assistant Secretary of the Navy for Energy is responsible for operational,
expeditionary, and shore energy for the Navy and Marine Corps. The figure shows the
structure of the energy programs within the Department of the Navy.

              Figure. Department of the Navy Energy Program Structure




DASN (Energy) Deputy Assistant Secretary of the Navy for Energy

The Deputy Chief of Naval Operations, Fleet Readiness and Logistics (CNO N4) serves
as the Navy’s Executive Agent for energy and energy-related matters. The Shore
Readiness Division (CNO N46) is responsible for the Navy’s shore energy program,
policies, and resourcing. CNO N46 works in coordination with CNIC and NAVFAC to
plan and execute shore energy projects. CNIC proposes shore energy projects to
CNO N46, which approves these projects and obtains funding resources. NAVFAC
provides CNIC with technical support during the development of requirements and is
responsible for executing the shore energy projects. NFESC develops standard energy
business practices and provides program planning, execution, reporting, and financial
management support to NAVFAC. In December 2009, NAVFAC established the
NAVFAC Energy Office to serve as the energy program office for NAVFAC.

                                               50
The Commandant, United States Marine Corps, is responsible for all shore energy
matters, and in coordination with ASN(EI&E), plans, programs, budgets, and executes
the Marine Corps shore energy management program. DC(I&L) is responsible for
establishing installation energy and water management policy. In October 2009, the
Commandant, United States Marine Corps, created the Expeditionary Energy Office to
analyze, develop, and direct the Marine Corps’ energy strategy.




                                         51
Appendix E. Criteria for Selecting and
Planning Renewable Energy Projects
Federal legislation and DoD and Department of the Navy policies provide criteria for the
selection and planning of renewable energy projects. DoD issued additional guidance
related to the Recovery Act project selection. This appendix provides additional details
on these policies for cost-effectiveness.

Legislative and Federal Requirements
Federal legislation and DoD policy contain requirements for the cost-effectiveness of
renewable energy projects. Section 8254(b) of the National Energy Conservation Policy
Act of 1978 (amended) states that the application of energy conservation measures 1 to
existing Federal buildings shall be made using life-cycle cost methods and procedures
established by the Secretary of Energy. Section 2911 of the National Defense
Authorization Act for 2007 requires energy conservation measures to demonstrate an
economic return on investment.

Executive Order 13423, “Strengthening Federal Environmental, Energy, and
Transportation Management,” January 24, 2007, requires agencies to conduct energy
activities in a “fiscally sound” manner. In establishing goals for the use of renewable
energy, the Energy Policy Act of 2005 states that these measures should be
“economically feasible.” In January 2008, the Department of Energy published guidance
on implementing the requirements in Executive Order 13423 and the Energy Policy Act
of 2005. The guidance stated that, “where life-cycle cost-effective, each agency shall
implement distributed generation systems in new construction or retrofit projects,
including renewable systems such as solar electric.”

10 Code of Federal Regulations 436, subpart A, “Methodology and Procedures for
Life-Cycle Cost Analyses,” November 20, 1990, establishes procedures for estimating
and comparing the life-cycle cost-effectiveness of energy conservation measures in
Federal buildings. Handbook 135 expands on the life-cycle cost methods and criteria
published in 10 Code of Federal Regulations 436, subpart A.

The Recovery Act requires agencies to spend funds “consistent with prudent
management,” and Office of Management and Budget Memorandum M-09-10, “Initial
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
February 18, 2009, stated that the guidance did not provide Federal agencies with a
waiver of existing legislative or administrative requirements.




1
  As defined in the National Energy Conservation Policy Act, energy conservation measures include
renewable energy projects.


                                                  52
The Principal Deputy Under Secretary of Defense (Comptroller) and the Deputy Under
Secretary of Defense (Installations and Environment) issued a memorandum on
February 23, 2009, directing the Military Departments to submit project lists for
Recovery Act funding. The memorandum stated that, when selecting projects, the
Military Departments should comply with the execution requirements in the Recovery
Act and Office of Management and Budget Memorandum M-09-10.

DoD and Department of the Navy Policies for Renewable
Energy Projects
DoD Instruction 4170.11, “Installation Energy Management,” December 11, 2009, 2 states
that it is DoD policy to invest in cost-effective renewable energy sources. Specifically,
the Instruction states that “renewable energy systems shall be considered when
cost-effective through a life-cycle cost analysis,” and DoD is committed to installing
renewable energy technologies “when it is life-cycle cost-effective.”

DoD Unified Facilities Criteria 3-400-01 establishes minimum standards and policy for
energy conservation in new construction and renovation of existing facilities. The
Unified Facilities Criteria states that “renewable energy shall be used in each design to
the maximum extent that is life-cycle cost-effective,” and it requires LCCAs to
demonstrate that projects are cost-effective.

Secretary of the Navy Instruction 4100.9A, “Department of the Navy (DON) Shore
Energy Management,” October 1, 2001, also emphasizes the requirement for shore
energy projects to be cost-effective. Specifically, the instruction states that projects
should minimize energy consumption, minimize costs, and utilize renewable energy
resources.




2
 The November 22, 2005, version of this policy, which was valid during Recovery Act project selection,
contained the same requirements discussed in this paragraph.


                                                  53
Appendix F. Management Comments on the
Finding and Our Response
The Acting Assistant Deputy Commandant for Installations and Logistics (Facilities)
stated that DoD OIG findings were based on an incomplete interpretation of legislation
and policies. In addition, the Principal Deputy Assistant Secretary of the Navy for
Energy, Installations, and Environment disagreed with our conclusion that the Recovery
Act energy projects reviewed had to be cost-effective. We maintain that our analysis and
interpretation of legislation and policies, to include how we performed LCCAs, is
accurate and appropriately presented in the report. The complete text of these comments
can be found in the Management Comments section of this report.

Marine Corps Comments on Project Cost-Effectiveness
The Acting Assistant Deputy Commandant for Installations and Logistics (Facilities)
stated that when selecting Recovery Act PV projects, Marine Corps officials considered
monetary factors and other special considerations including impact to mission execution,
real estate and encroachment issues, and environmental and cultural resource
requirements. The Acting Assistant Deputy Commandant stated that the DoD OIG did
not consider these non-monetary factors and incorrectly determined that the term “cost-
effective” is limited to monetary considerations. The Acting Assistant Deputy
Commandant cited section 2911, title 10, United States Code (10 U.S.C. § 2911) as a
basis for considering non-monetary factors. The Acting Assistant Deputy Commandant
also cited non-monetary benefits that are addressed in Handbook 135, specifically that,
“if the decision-maker judges that the non-monetary benefits of a project are greater than
the LCC [life cycle cost] penalty, the project can be accepted as cost effective.” The
Acting Assistant Deputy Commandant also stated that a unique and valuable aspect of
Project P856-M is that it was located on a landfill, effectively transforming unusable land
into a site producing renewable energy.

Our Response
We believe that we have correctly applied the term “cost-effective,” and that it should not
include consideration of non-monetary factors. According to 10 Code of Federal
Regulations sec. 436.18 (1996), Federal agencies shall measure cost-effectiveness by
considering investment costs, non-fuel operation and maintenance cost, replacement cost,
salvage value, and energy costs. We appropriately considered these costs in our LCCA
calculations.

With regard to 10 U.S.C. § 2911, the section that the Acting Assistant Deputy
Commandant cited applies to a requirement for the Secretary of Defense to develop and
implement energy performance goals and an energy performance master plan. It does not
relate to project selection at the Service levels. However, 10 U.S.C. § 2911 later states
that for purposes of implementing the energy performance plan, the Secretary of Defense
shall provide that the selection of energy conservation measures “shall be limited to those
measures that…demonstrate an economic return on the investment.” Therefore, non-
monetary considerations do not negate the requirement for projects to be cost-effective.


                                            54
The Acting Assistant Deputy Commandant cited Handbook 135, which outlines factors
officials must consider when preparing an LCCA. While Handbook 135 allows decision-
makers to consider significant non-monetary effects as part of an investment decision, it
states that these considerations should be included in the project documentation. Marine
Corps officials did not provide any documentation for Project P856-M to show their
analysis of non-monetary factors and document their conclusion that these factors
outweighed the amount of investment cost the project would not recover.

In addition, since Handbook 135 was last updated in 1996, legislation and DoD policy
have significantly impacted the factors that decision-makers must consider when
selecting energy projects. For example, the current and previous versions of DoD
Instruction 4170.11, both updated more recently than NIST Handbook 135, require
energy projects to be cost-effective. As previously stated, 10 U.S.C. § 2911, which was
established by the National Defense Authorization Act of 2007, requires energy projects
to demonstrate an economic return on investment. Additionally, the DoD Energy
Manager’s Handbook, updated in 2005, states that “legislation and executive orders
clearly specify life cycle cost effectiveness as the overriding criteria behind Federal
investment in energy efficiency.”

We acknowledge that the PV project at Camp Pendleton utilized land that otherwise
would remain vacant. However, while it may be appropriate to consider non-monetary
factors like this when selecting projects, officials must first determine that a project is
cost-effective. Appendix E outlines the Federal legislation and DoD policy that require
renewable energy projects to be cost-effective.


Marine Corps Comments on Life-Cycle Cost Analysis
The Acting Assistant Deputy Commandant stated that our LCCAs did not consider:
   • monetary benefits associated with the ownership of renewable energy certificates;
   • provisions established by the Energy Policy Act of 2005, which allow double-
      counting the contribution of renewable energy generated on-site and consumed by
      a Federal facility; and
   • a provision established by the Energy Independence and Security Act of 2007,
      which increased allowable system service life from 25 to 40 years.

Our Response
None of the three points discussed by the Acting Assistant Deputy Commandant impact
the accuracy of our LCCAs, as discussed in subsequent paragraphs. In addition, when
Marine Corps officials prepared the LCCA for the Camp Pendleton project, they did not
consider these three items, which is why we did not discuss them in the report.

Renewable Energy Certificates. It would have been inappropriate to include
Renewable Energy Certificates (RECs) in the Camp Pendleton LCCA. According to the
Department of Energy’s January 28, 2008 “Renewable Energy Requirement Guidance for
the Energy Policy Act of 2005 and Executive Order 13423,” an agency may not receive
credit toward energy goals if it sells its RECs, unless in doing so it purchases an equal

                                             55
amount of RECs from another source. Since a primary objective of the Camp Pendleton
PV project, according to DD Form 1391, was to make progress toward the Energy Policy
Act of 2005 goal, officials would be unable to sell RECs and claim progress toward
energy goals unless they purchased an equal amount of RECs from another source. It is
not likely that selling 100 RECs and buying 100 from a different source would result in a
significant monetary gain or loss. Therefore, it is not appropriate to include RECs in the
Camp Pendleton LCCA.

Double-Counting of Energy. The double-counting of energy applies to measuring
Agency progress toward specific energy goals. It is not an actual monetary benefit;
rather, it is an incentive to implement renewable energy projects on Federal lands. It
would be inappropriate, on an LCCA, to state that a system with an actual electricity
production of 1,000 kilowatt-hours produces 2,000 kilowatt-hours.

40-Year LCCAs. We agree with the Marine Corps that the Handbook 135 maximum
study period of 25 years is outdated because the Energy Independence and Security Act
of 2007 extended the maximum study period to 40 years, and we updated the report to
reflect this fact. We also acknowledge that the Camp Pendleton PV system may last
more than 20 years (because it obtained a 25 year PV panel warranty), which is why we
subtracted residual value from the cost of the system to ensure our LCCA results fairly
accounted for a potentially longer life. In fact, because of the residual value accounted
for in our 20-year LCCA, the amount not recovered for the Camp Pendleton project over
20 years is almost the same as the amount for our 40-year analysis (note that the 40-year
analysis assumes that the PV panels will not need to be replaced). Table F-1 illustrates
the results of 20-, 25-, and 40-year LCCAs for Camp Pendleton.

       Table F-1. Camp Pendleton 20-Year, 25-Year, and 40-Year LCCA Results
                    Investment      Discounted      Amount Not Savings-to-
        LCCA
                       Cost       Energy Savings     Recovered    Investment
        Term
                     (millions)      (millions)      (millions)      Ratio
     20 Years              $ 8.43           $ 3.26         $5.17         0.39
                                                                      1
     25 Years              $ 10.30               $ 3.99          $6.32             0.39
                                                                      1
     40 Years              $ 10.30               $ 5.23          $5.08             0.51
1
    Amounts are rounded.

Although a maximum study period of 40 years is allowed for LCCAs, we believe that a
20-year study period was reasonable and appropriate. Specifically, the panels for each
PV system that we reviewed had either 20 or 25 year warranties. In addition, there is no
guarantee that the PV panels will last longer than 20 to 25 years or that there will be
funding in the future for replacement panels and inverters to continue operation of the
system. Further, based on Table F-1, in which we assumed that no PV panel replacement
costs would be incurred during a 40-year period for the Camp Pendleton PV system, the
amount of investment cost not recovered exceeds $5 million. This amount not recovered
is approximately the same amount we estimated over a 20-year study period, accounting
for an appropriate amount of residual value.

                                            56
Marine Corps Comments on Project Planning and Selection
The Acting Assistant Deputy Commandant for Installations and Logistics (Facilities)
disagreed with our finding that Marine Corps officials did not select and plan cost-
effective PV projects in accordance with the Recovery Act and applicable energy
legislation and policies. The Acting Assistant Deputy Commandant cited the Energy
Policy Act of 2005 and the National Defense Authorization Act of 2007, which direct the
use of renewable energy in DoD facilities. The Acting Assistant Deputy Commandant
also cited that a purpose of the Recovery Act was to invest in the domestic renewable
energy industry. The Acting Assistant Deputy Commandant stated that Marine Corps
officials considered cost-effectiveness in their decision to execute Project P856-M;
however, officials recognized the potential return-on-investment limitations of the project
if it was evaluated strictly on a monetary basis. The Acting Assistant Deputy
Commandant stated that Project P856-M contributes to the achievement of
Congressionally-mandated renewable energy goals and demonstrates excellence in
managing limited resources.

The Acting Assistant Deputy Commandant for Installations and Logistics (Facilities) also
disagreed with our finding that Marine Corps officials were not well-equipped to handle
quick timelines for planning and selecting projects because, at the time of the Recovery
Act’s implementation, the Marine Corps did not have processes for completing LCCAs,
processes for planning and selecting all energy projects, or energy strategies for
achieving legislative goals. With regard to Project P856-M at Camp Pendleton, the
Acting Assistant Deputy Commandant stated that Marine Corps officials used available
reports assessing renewable energy opportunities within the Department of the Navy, as
well as information published by the Department of Energy. The Acting Assistant
Deputy Commandant also cited several examples of documented planning related to the
selection and justification of renewable energy projects on Department of the Navy
installations. The Acting Assistant Deputy Commandant stated that these plans and
reports analyzed benefits and drawbacks of developing specific renewable technologies
and assessed potential opportunities to utilize renewable energy sources. However, the
Acting Assistant Deputy Commandant acknowledged that the project planning package
for Project P856-M may not reflect full consideration of these documents during the
project planning and selection process.

The Acting Assistant Deputy Commandant stated that policy and instruction related to
the energy program is contained in Marine Corps Order P11000.9C, which is being
revised to incorporate requirements from the recently published “United States Marine
Corps Expeditionary Energy Strategy and Implementation Plan.”

Our Response
We acknowledge that renewable energy projects like the PV project at Camp Pendleton
will contribute toward Federal energy goals such as the requirement from the Energy
Policy Act of 2005 to derive a specific percentage of total electricity consumption from
renewable electric energy – 3 percent each year in in FY07-FY09 and 5 percent each year
in FY10-FY12. However, as explained in the report, the projects we reviewed will
contribute only minimally toward renewable energy goals.

                                            57
We also acknowledge that the Recovery Act had unique goals and emphasized
investments in renewable energy. However, the Recovery Act also provided for high
levels of accountability and transparency for how funds were spent, and implementing
guidance from the Office of Management and Budget stated that the Recovery Act did
not waive requirements from existing legislation or policy.

We disagree that Marine Corps officials adequately considered the cost-effectiveness of
Project P856-M at Camp Pendleton. We determined that the project would not recover
$5.17 million of the $8.43 million investment cost; therefore, the project is not cost-
effective. Further, we determined that before the contract award, officials had LCCA
information available, which showed that the project would not recover 60 percent of the
investment cost, but officials disregarded this information and awarded the contract.

Regarding the planning documents and reports cited by the Acting Assistant Deputy
Commandant, we determined that the reports analyze the feasibility of implementing
renewable energy projects, but they still emphasize cost-effectiveness. For example, the
Report to Congress, “DoD Renewable Energy Assessment,” March 14, 2005 states that,
“where economical, DoD should pursue on-installation production of renewable energy.”
The report clarifies that PV systems can be economical where there are very high utility
costs or where State and Federal rebates and tax incentives are in effect. In addition, a
July 2007 National Renewable Energy Laboratory report on PV systems at Camp
Pendleton states that the economic feasibility of PV systems will be largely dependent on
Federal, State, and local incentives. The report identifies that with the Federal, State, and
local incentives, simple payback periods for the proposed projects range from
approximately 5 to 20, and without any economic incentives, the simple payback periods
range from 39 to 52 years. Therefore, while we agree that the Department of the Navy
had numerous reports on the feasibility of PV systems available, those reports
acknowledged the requirement for project to be cost-effective and they identified
challenges in implementing projects without incentives.

We discussed Marine Corps Order P11000.9C in our report and identified that it was not
comprehensive because it only addressed ECIP projects and FSRM energy projects
executed with O&M funds. The policy did not address the planning and selection of
MILCON-funded energy projects such as the Recovery Act project at Camp Pendleton.
However, we commend the Marine Corps for taking steps to update this policy.

Department of the Navy Comments on Project Planning and
Selection and the Requirement for Projects to be Cost-Effective
The Principal Deputy Assistant Secretary of the Navy for Energy, Installations, and
Environment provided comments on the project planning and selection process. 24
Specifically, the Principal Deputy disagreed with our conclusion that the Recovery Act
energy projects reviewed had to be cost-effective. The Principal Deputy stated that the

24
  The Principal Deputy provided these comments in response to Recommendations 7 and 8; however, we
determined that they were more applicable to the finding.


                                                58
Office of Management and Budget instructed agencies to support projects that achieved
long-term benefits such as fostering energy independence. In addition, DoD pursued
three broad goals in its use of Recovery Act funding, one of which was to improve
energy efficiency.

The Principal Deputy stated that two projects were FSRM projects and, according to the
DoD FSRM program plan, FSRM projects were selected primarily based on mission
requirements, quality of life impact, National Environmental Policy Act documentation
status, and an acquisition strategy that focused on executing projects quickly. The
Principal Deputy also stated that the justification for the FSRM projects to install PV
systems in California and Hawaii did not refer to cost-effectiveness. Instead, the
justification stated that the projects would make progress toward energy usage reduction
goals in the Energy Independence and Security Act of 2007 and to reduce overall
recurring utility costs in Navy shore facilities. Finally, the Principal Deputy stated that
the Department of the Navy identified, developed, and submitted FSRM projects in
response to a request from the Office of the Secretary of Defense, which did not include a
requirement for LCCA information. Based on all of these factors, the Principal Deputy
concluded that the intent of Office of the Secretary of Defense was to select Recovery
Act FSRM energy projects based on contribution toward achievement of energy goals
rather than cost-effectiveness.

Regarding the project at Camp Pendleton, the Principal Deputy stated that this was an
ECIP project and it was selected in accordance with Federal legislation and DoD policy.
Further, the Principal Deputy stated that the selection was justified in accordance with
life cycle cost analysis guidance. The Principal Deputy referenced a statement from the
Director of Facilities Energy, Office of the Deputy Undersecretary of Defense
(Installations and Environment) in response to a previous DoD IG report on a Recovery
Act ECIP project, which stated that ECIP policy does not require individual renewable
energy projects to meet standards for savings-to-investment ratio and payback.

Our Response
We acknowledge that the Recovery Act and subsequent Federal and DoD guidance
provided unique goals for Recovery Act projects, and these goals emphasized energy
efficiency. However, we maintain our position regarding the requirement for Recovery
Act energy projects to be cost effective. Specifically, the Recovery Act provided for
unprecedented transparency and accountability and it required the “prudent management”
of funds. Office of Management and Budget Memorandum M-09-10, “Initial
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
February 18, 2009, stated that the guidance did not provide Federal agencies with a
waiver of existing legislative or administrative requirements. As explained in
Appendix E, Federal legislation and DoD policy clearly requires renewable energy
projects to be cost-effective.




                                            59
We disagree with the Principal Deputy’s statement that the justifications for the PV
projects at Navy installations in California and Hawaii did not refer to cost-effectiveness.
The DD Form 1391s for both of these projects stated, “energy program requirements and
fiscal imperatives constitute a clear mandate to implement the type of cost effective,
energy/water efficiency opportunities represented by this project.” In addition, we
identified in the report that the project justifications on the DD Form 1391s were
misleading because they indicated that the projects would contribute substantially to
meeting renewable energy goals when, in fact, the projects’ contributions will be
minimal.

We acknowledge that DoD Instruction 4170.11 allows a percentage of the annual ECIP
budget to be programmed against renewable energy projects that do not meet the criteria
for savings-to-investment ratio and payback in order to expand the use of renewable
energy applications and to meet energy goals. However, the Recovery Act project to
install a PV system at Camp Pendleton was not an ECIP project; therefore, this portion of
the DoD policy is not applicable to the project. In addition, as stated in the report, the
project will not recover $5.17 million of the $8.43 million invested in the project.
Therefore, the project is not justified in accordance with life-cycle cost analysis guidance.




                                             60
Office of the Assistant Secretary of the Navy, Energy,
Installations, and Environment Comments




                                      DEPARTMENT OF T H E NAVY
                                  OF r f (;F (,Jr f ll r. A~"f~ IA l'l l .:,rCRI:.IAI/Y
                              ! LNLHGV . I NS I 11.1 ! 1\ 11 01'15 l\t.J ll I- N V lflO NMf N I
                                              1"1')0 NO\V'( p I. N r " ~;O N
                                         WASH I N Lol(JN Dc. ::' tl: \ !\'J It\'>o                JUN 13 2011

      MEMORANDUM FOR THE INSPECTOR GENERAL. DEPARTMENT OF DEFENSE

      SUB) : Drart DoD IG Report: '"The Department of the Navy Spent Recovery Act Funds on
             Photovoltaic Projec ts That Were Not Cost- Effective" (Project No. D2010· DOOOLH·
             0081.000)

             This is in response to your memorandum of May 3, 20 11 requesting comments oillhe
      subject draft report. Depa rtment of the Navy comments are provided in the attach men t.
      Detailed Navy and Marine COrps comments are al so attached.

             Although we agree with most of the report 's reco mmendations, we strongly disagree
      with the recommendations that the Navy and M:uine Corps conduct administrative review~
      to identify individuals who. in Do D IG 's view, di sregarded requ irements for the selecti on or
      projects and institute administrative action s. as may be warranted. as the result of those
      reviews. As discussed with your . taff and as illusLrated by OSO' s comments for similar
      DoD 10 reports, there is a fundamental disagreement over the 10' s conclusion that ~ u ch
      projects were required to be cost-effective. Navy and Marine Corps staffs developed and
                                    Click to add JPEG file
      submitted valid projects consistent with the guidance and time constraints they were given.
      Accordingly. pursuing administrative actions against individuals in lower levels of the chain
      of command would be mi sgu ided and unproductive.

              Thank yo u for the opportun ity to comment on the subject draft report. We would
      welcome the opporlUnity to meet with you and/or your staff to discuss the 000 IG findings
      and recommendation s, and our comments and concern s, prior to public:llion of the final
      report . My point of contact is




                                                     4~~
                                                       Principal Deputy

      Attachments
      As stated

      Copy to:
      NAYINSGEN
      ODUSD (I&E)
      OUSD (C)
      OASN (FM&C)
      CNO
      CMC
      CNIC
      NAYFAC




                                                                            61
000 IG Draft Report: "The Department of the Navy Spent Recovery Act Funds on
             Photovoltaic Projects That Were Not Cost·EfTective"
                    (Project No. D201O·DOOOLH·OO81.000j
                      Department of the Navy Comments


DoD IG Recommendation I, We recommend that the Deputy Chier or Naval Operations.
Fleet Readiness and Logistic!'), develop:

       a. A co mpreh c n ~ive shore energy strategy that outlines the energy program
       management ~ l ruClUre and aligns resources with legislative energy goals: and

       b. An implementation plan that identifies specific tusks. metrics. und
       rcsponsibilitic.<i for meeting energy goals ..

   Department of the Navy Re..,ponse: Partially concur. The Department of Navy
   (DoN) is in the process of developin g a comprehensive energy strategy to include
   both shore and tactical energy. The DoN recently established a Deputy Assistanl
   Secretary of the Navy for Energy to align legislated energy goals with the
   Secretary of the Navy's energy goals. It is intended that the comprehensh'e
   energy strategy will include tasks, metrics and responsibilities for achieving
   energy goals. The Depar1ment non·concurs with the recommendation to align
                         Click to add JPEG file
   resource... with legislative energy goals as we do not believe it within the purview
   of the DODIG to prioritize the use of Service funding.

DoD IG Recommendation 2. We recommend that the Depuly Assistant Secretary of the
Navy for Energ y. in coordinalion with the Depu ly Chi ef of Naval Operations, Fleet
Readiness and Logistics: th e Commander. ava llnstallations Command: the Director.
Naval Faci lities Engineering Command Energy Office; and the Assistant Deputy
Commandant for Installations and Logistics (Facilities):

       a. Establish a standard de finiti on of a shore energy project mal aligns with DoD
       po licy; and

       b. Incorporate the definition into Secretary or the Navy Energy policy.

   Department of the Navy Re.."iponse: Concur. The Navy and Marine Corps have
   developed definitions for energy projects, The Deputy Assistant Secretary of the
   Navy for Energy will work with the appropriate NavylMarine Co rps offices to
   establish a common definition for use within the DoN.

DoD 10 Recommendation 3. We recommend thai Ihe Deputy Chief of aval Operations.
Fleet Readiness and Logistics. in coordination with the Commander. Naval Installati ons
Command; and the Director, Nava l Faci lities Engineering Command Energy Office:




                                                                                 Attachmcnt




                                                        62
      u. Develo p comprehe nsive policy for planning, priori li7j ng. selec ting. and
      executing cost-effective FSRM and MILCON :-ohare energy projects in accordance
      with DoD and Federal requirement!' that includes:

          l. Processes for performing and documenting life-cycle em>! analyses:
         2. Sta ndard ized me thods forcslimnling project Costs a nd energy savings
              durin g project planni ng; and
          3. Responsibilities for o bwin ing incentives fo r energy projects, guidel ines for
             claiming ince nti veI'. and justifications fo r saving ince ntive s fo r futu re
             projects; and

      h. integrale the policy into standard N;.lVY processes fo r plann ing, prioritizi ng.
      selecting. and exec uting FSRM and MILCON ene rgy projects.

DoD fG Recommendation 4. We reco mmend dUll the Assistanl Deputy Cnmmandant for
Instal lations and Logistics (Faci lities):

      a. Develop comprehensive poli cy for planning. prioriti zing. selecting. and
      executing cost-effective FSRM and MI LCON ~ hore energy projecls in accordance
      with DoD and Federal req uirements thm includes:

                         Click to add JPEG file
          J. P rocesse.~ for performing and documenting life-cycle cmil analyses:
          2. Siandardiz.ed methods for cSl im;'lIin g project costs "nct energy savi n g~
             during project planning; and
          3. Responsibi lilies for obtaining inccnlives for energy projects, gui delines for
             claiming incenti ves. and justifications for suving incentives for future
             projects: and

      b. Integrate the policy into .~Iandard Marine Corps processes for planning.
      priorit izing. selcctin g, and executing FSRM and MILCON energy projects.

   Department of th e Navy Response: Concur with recommendations and 3. and 4.

   Current Nav}' guidance and the draft OPNAVINST 4100.5E mandates the usc of
   the OPNAV.acc redited energy Return on In,,'cstment (eROI) decision tool as the
   standardized method for evaluatin g and prioritizing FSRM energy (SRM-e) and
   MILCON shore energy projects.

   In the course of selecting and planning the Marine Corps Base Camp Pendleton
   project, the Marine Corps utilized available reports assessing renewable energy
   opport unities within the DoN as well as an abund ance of information published
   by the Department of Energy related 10 the impl ementation of renewable energy
   project'i. The Marine Corps is revising its guid ance to better ca pture those
   el e m en l~ in project documentation and address applicable requiremenl'i.




                                               2                                    Attachment




                                                          63
                                                                                                Final Report 

                                                                                                 Reference





DoD IG Recommendation 5. We recommend thai Ihe Naval Facili ties Engineering
Command Southwest Utilities and Energy M<.Inagcr apply for Ca lifornia Solar Initi ative
rebates as soon as po~s ible .

   Department of the Navy Response: Concur. A rev iew of th e 34 systems in th e              Revised

   NAVFAC Southwest a rea of respo nsibility revealed that 24 systems are loca ted
   within Ca liforn ia Sola r Initiative (CS I) incentive progra m territories a nd thus
   eligible for the incentive. As l"sUi lied. 13 of these systems will require an
   allern ate meter to satisfy progra m repo rting requirements. A total of 23 of th ese
   syste ms will require implementation of a third· pa rty monitorin g contract to
   qua lify for receiving the CSt Perfor ma nce BHSOO Incentive (over a 60-month
   period). Estimated cost to implement these requirements is $160.000.
   Currently, two of the three CS[ program territories no longe r ha ve funding for
   Non.Resid entia l systems a nd a re accepting a pplications onty pending ava ila bility
   of futur e fund ing or where previously approved fund reser vations drop out j this
   mea ns that any new applica tion for incenti ve fundin g is no longer assured of
   being a pproved Hnd funded . A Iota I of 17 oul oflh e 24 eligible DoN ARRA
   systems a re impacted by this fundin g constra int. NAV FAC Southwest is
   assessing the economic value of pu rsuing CSI incentives in li ght of current
   progra m conditions. CSI ince nti ve will be pu rsued for the systems t hat pro mise
   return over the cost of implementing th e progra m requirements.
                         Click to add JPEG file
DoD fG Recommendation 6. We recom mend Ihal the Director, Shore Readiness
Division (N46). Office of the Chi ef of Naval Opc rmions. Aeet Readi ness and Logistics.
in coord inat ion with Commander. Navallnstallalions Command . review thc c·ROI [001
to ensure it adheres [0 li fe-cycl e cost-effectiveness requi rements in legisku ion and
Federal and 0 00 criteri a for energy projects. If the tool docs not adhere to th c.~
requ irements. we recommend that Ihe Di fC<' lor. Shore Readine$S Di vision. mod ify c· ROI
so thai only projects lhat arc life-c ycle cosH::ffeclivc receive fundi ng.

   Department of the Nav y Respo nse: Concur. The e·RO I tool complies with the
   Depa rtment of E nergy (DOE) 10 eFR 436, Federa l E nergy Ma nagement a nd
   Plannin g Progra ms a nd the Federa l Energy Ma nageme nt Progra m (FEMP)
   NIST Ha ndbook 135, Energy Pn'ce In dices a" d Discou", Fac.lOrs f or LLC
   Analysis. Only projeclS that are life~cycle cost-effecti ve rC(;eive fundin g.

   "'"EMP li fe-cycle costing meth ods and procedures set forth in 10 CFR 436
   subpa rt A, a re to be rollowed by all federal agencies in eva lua ting the cost
   effectiveness of potential energy a nd water co nse r~a ti o n proj ec t~ a nd renewable
   energy projeds in new a nd existing federa l owned a nd leased buildings.




                                              3                                 Attachment




                                                        64
0 0 0 IG Recommendat ion 7. We recomme nd that the Deput y C hief of Nava l Operatio ns.
FJeel Readiness and Logistics:

       a. Initiate an admin istrati ve review    10   identi fy indi viduals io the Navy rc.'\ponsible
       for disregardin g the requi rements for planning and selecting cost-effecti ve
       projects. which resulted in Recovery Act funds not recovered;

       b. Initiate as appropriate an y adminiswltivc actions warranted by the review.


       DoD IG Recommendati on 8. We recommend that the Assistant Deputy
       Comm andant fo r ln~tall a l i o n s and Log istics. (Facil iti es):

       a, Initiate an administrative re view to identify indi vi duals in the Mari ne Corps
       responsible for disregarding the requ ireme nts fo r pla nning and :-;e lecti ng co st-
       effective projects, whi ch resulted in Recovery Act ru nds no t recovered: and

       b. Initi ate as appropriate any adminislrdt ive actions warranted by the rev iew.

   Depa rtment of the Navy Response: Strongly non -concur with recommendations
                            Click to add JPEG file
   7. and 8. As discussed with 0 00 IG a nd ODUSD (I& E) statTs, a nd as illustra ted
   in OSD comments o n simila r 000 IG repor ts, there is a fundamenta l
   disagreement over the IG's conclusion that such projects were required to be
   cost-cm."Ctive. G ive n th is disagreement - even within OSO - pursuing
   administra tive a ctions aga inst individual.s in lowe r levels of the chain of
   command would be misguided a nd unproductive.

   In Identifying projects for use of ARRA fund s, O l\{8 instructed agencies to
   s upport projects that ac hi evt.-d long-t erm benelilS s uch as fostering energy
   independence. DoD purs ued three broad goals in its use of AKRA fundin g. O ne
   of those goals was to improve energy efficiency.

   Two of the three projects reviewed by the DoD IG were Facilities S usta inment ,
   Restora tion, a nd Mod ernization (FSRt\1) proj ects. Acco rding the DoD FSRM
   p rogra m pla n, FSRM proj ects were selected based primarily on the follo win g
   criteri a: (I) mission requjre me nl~; (2) quality of life impact; (3) National
   Environmenta l Policy Act (NEPA) documentation status; and (4) acquisition
   st'r ategy with a focus on the ability to execute projects quickly.

   In its s pending pla n provided to Co ngn'Ss, OSD identifl t.."CI Na vy I<' SRM prnjt..'Ct
   involving the ins talla tion of ph otovolta ic systems in Califo rnia a nd Hawaii and
   stated the following in Us justincation for these projects:




                                                      4                                   Attachment




                                                                 65
    ttlf this project is not prollided, progress towards the Energy Usage Reduction
   Goal oj Energy Independence and Security Act (EISA) 2007 will be slowed.
   This project will reduce the oyerall recurring utility costs in Navy shore
   facilities.

The justification did not refer to (':ost-cffectiveness.

These projects were identified, developed. and submitted ill response to the OSD
call for ARRA projects. OSD did not request LCCA information for FSRM
projects. Measurements of efTecliveness for FSRM projects did not include
LCCA fadors.

In contrast, OSO requested LCCA info for Energy Conservation Investment
Program (ECIP) projects and included LCCA factors in its measures of
effectiveness.

Notwithstanding the DoD IG assertions. the above suggests that OSD's intent for
the selection of energy projecL'i for ARRA funding, especially "~SRM project."
was based more on contribution towards achievement of energy goals rather
than cost-elTectiveness.

                      Click to add JPEG file
The tbird project reviewed by DoD IG involved an ECIP project at Murine
Corps Base Camp Pendleton. The selection of this project was in accordance
witb Feder.ll lcgislation and DOD policy. further tbe selection was justified in
accordance with life cycle cost analysis guidance.

In his response to a DoD IG draft report on a similar ARRA project a t Naval
Station Norfolk, the OOUSO (I&E) Diredor of Facilities Energy wrote:

   IlWe consider proceeding with this project to be in the best interest.~ of the
   Department and consistent with the intentions of the Recovery Act HCIP
   program. Recovery ActJundingfor EelP was provided to the Military Services
   based on the combined requirements of the Recovery Act and goals of HelP.
   As described in the Recovery Act ECIP Program Plan, ECIP is generally
   designaledJor projects thai reduce energy and water consumption, but EelP
   also prolJides a critical funding source for inl'estments in small-scale renewable
   energy technologies. POl64 contn'butes to these overall program goals by
   promoting renewable energy in the Norfolk area.

    EelP policy does nOt requfre individual renewable energy projects 10 meet the
    SIR and payback standard. To support renewable energy projects, both the
    2005 and 2009 editions oj OoD14170.1 I permit a portion of the EelP program
    to be usedfor renewable energy projects that are below the SIR or payback
    period thresholds. This approach is also co n.~i.~tent with the consolidaled
    appropriations committee report for the ECIP program in 2009, which strongly




                                           s                               Allac hmenl




                                                     66
   supports the Department's use oj ECIP to promote renewable energy
   resources, "

Accordingly, pursuing a ny form of administrative action against individuals at
lower levels would unfairly place blame on them when there is apparent
disagreement - even within OSO.




                    Click to add JPEG file




                                      6                                Altachmcnl




                                                67
Commander, Navy Installations Command Comments

                                                                                                 Final Report
                                                                                                  Reference



                                 DEPARTMENT OF THE NAVY
                            COMMANDER, NAVY INSTALLATIONS COMMAND
                                7 16 SICARD ST"'EET, SE. SUITE 1000
                              WASHINGTON ~J AVY YARD, DC 20374-:i140



                                                                       57 4 0
                                                                       Ser NOOG / IIU622 7 3
                                                                       9 J un 11
    Frem :    In s pecto r Ge neral, Navy Installat i ons Command
    To:       Assistan~    Secretary of the Na~~ (Installations and
              Environment )

    sut:j:    THE DEPARTMENT OF THE NAVY SPENT RECOVERY ACT FUNDS ON
              PHOTOVOLTAIC PROJECTS THAT WERE NOT COST ~ EFFECTIVE
              ( PROJECT NO . D2010~DOOOLH ~0081 .000 )

    Ref:      (~)   DoD IG memo of 3 May 11

    En cl :   (1 ) CNIC Response to Subject Report
              (2) CN:C N4 Project Development and Assessment War~ing
                   Orne r for Shore Program Objective Memorandum, Fiscal                       Omitted because of
                   Years 201 4~ 2018 (POM-14 l                                                 length. Copies will
              (3) Addendurr, 8 CNIC N4 Proj ect Devel ()pment and Assessment
                   Warning Order for Shore Program Objective Memorandum,                       be provided upon
                   Fiscal Years 2014-2018 (POM - 14 )                                          request.
    1.  Per reference (al, CNIC reviewed the draft report . Speci f ic
                               Click to add JPEG file
    comments a re provided in enc l osure (1 ) , Enclosures ': 2) and (3)
    are forwa rded as supporting documents to enclosure ( 1 ) ana
    referenced therein.

    2.     While we concur with Re colilmendations 2, 3, and 6, we do not
    conc u r with Recommendation 7.



                                                                        it:
                                                                        or email




    Copy to:
    N OO
    N4




                                                              68
            COMMANDER, NAVY I NSTALLATIONS COMMPED (CNIC)
                 COMMENTS TO RECOMMENDATIONS POR DOD
             IG REPORT THE DEPARTMENT OF THE NIWY SPENT
                  RECOVERY ACT FUNDS ON PHOTOVOLTll.IC
                PROJECTS THAT WERE NOT COST-EFFECTIVE
                 (PROJECT NO . D2010-DOOOLH-0081.000)

Below are CNIC's responses to the recommendations .

FIND I NG. OFFICIALS DID NOT CONSIDBR COST-EFFECTIVENESS FOR
RE COVERY ACT PV PROJECTS

Re commendation 2 : We reccmmend that the Deputy Assistant
Secretary of the Navy for Energy (DASN(E), in coordination with
the Deputy Chief of Nav·al Operations, Flee t Readiness and
Logistics; the COlllmander, Naval Installations Command ; the
Director, Naval Facilities EI1gineering Command Energy Oftice;
and the Assistant Deputy Commandant fa:.::· Insta l lations and
Logistics ( Facilities)

    a.  Est"_nh i ish a stan:iard definition of   0.   shore energy
project that aligns with DoD policy.

     Re sp onse : Concur. An "Enf>:rgy Project" i s defined within
Draft OPNAVINST 4100.5E , Navy Shore Energy Management, as :

                        Click to add JPEG file
     "A facility or utility system improvement, regFirdless of
     funding source, conceived ani developed for t he purposp. of
     increasing energy or water efficiency, energy security, and
     suscainability tor a facility or group of :a::ilities."

    b.  Inccrporate t he definition into Secretary of the Navy
energy policy .

     Re s p o n se: Concur . The Dra f t OPNAVINST 4 100.SE is in t h e
Final Draft phase, pending final administrative review prior to
signature hy the Deputy Ch i ef of Naval Operations .

Re commendati o n 3 : We recommend that the Deputy Chief of Naval
Operations, Fleet Readiness ar.d LogiRtics, in coordination with
the Commander, Navy Insta l lat i ons Command; and the Director,
Naval Facilities Engineering Command Energy Office:

    a.  Develop comprehensive policy for planning, prioritizing,
selecting, and executing cost-e f fective FSRM and MILCON shore
energy projects in accordance with DoD and FederFil requirements
tha~ includes (1) Processes fer performing and documenting life -
cycle cost analyses; (2) StandFirdized methods for es.timating
project costs and energy savings during project p l anning . and




                                                             Enclosure   (1)




                                                  69
(3 ) Responsib:"lities for obtaining incentives for energy
projects, guidelines [ur- claiming incentives, and justifications
for saving incentives for future projects.

     Response:   Concur . Current Navy guidance and the Draft
OPNAVINST 4100. 5E rr,andates the use of the OPNAV accredited
energy Return on Investment (eROI) decision tool as the
standardized nethod fo r evaluating and prioritizing FSRM energy
(SRM-e ) and M:LCON Shore Energy projects .

     The eROI tool inclujes the same format i'lFl ~_he OSO Energy
Conservation Investment Program (ECTP) Life Cycle Cost Analysis
(LCCA ) ann is in accordance with ECPact 1992 mandateD . Based
on the Energy Category, the economic life is calculated from
year one throughout thc life cycle taking into com::ide.cdtion
project c<ls h flows, recurrir.g e nergy sa.vings, u t ility cost, non-
energy savings, capital expendi tures; as well as the relative
value of non-financia. l dttributes related to energy projects
such as ca~'bon l'eduction anc. legal compliance.

      CNIC gLidance for energy p roject submittal includes the
requ irement to submit a 1391 and eROI template for each project.
OPNAVINST l101Q.20G and NAVFAC P- 442 provide policy and guidanc!:'!
                        Click to add JPEG file
for performing detailed cost estimates and economic analy~is.
The guidance is the sane for energy projects and fer non-energy
projects.   The eROI tool includes a Rr.andardized format for
documenting project costs and energy RavinCJs.   The eROI tool
also documents the simplf>. payback period, which is a required
criteria for approval of all projects.

       The DOL Financial Regulation (F~R), Volume 12, Chapter 12
is t hR gu i dance document f:Jr claiming incentives Ear energy
projects. Accordi:1.g to the DoD FMR, incentives obtained during a
fiscal year must be E-pent within that fiscal yeac . The DoD Ft-IR
allO""·8 the c.:.rryover of unobligated tdldllces resultir.g from
energy conservation meaSUl.-es.    The eRGI tool includes a
standardized format for documenting incentives that are
appliCable for energy projects .

     incentives and rebates vary by state and by local utility
provider.   Local procedures provide guidance for obtaining
incentives from energy projects.   The Scope of vlork for hiring
the region or installation Resource Efficiency NanagRr (REM)
establish t he REM as the local point of contar.r. to identify and
apply f or incentives.

    b.  Integrate the po l i cy into standard N~vy processes for
planning, prioritizing, selecting, and executing FSRM and MI LCON
energy projects .

                                   2                    Enclosure (1)




                                              70
                                                                           Final Report 

                                                                            Reference





                                                                         Omitted because of
     Re spo ns e:  Concur , Enclosure (2) ~ublishes the standa~d
processes [OL' p l ann ing, prioritizing, selecting and executing        length. Copies will
FSRM a~d MILCUN energy projec~s,       Specific details for energy       be provided upon
projects are given in enclos u re (3) ,                                  request.
Re commendat i on 6 : We recommend that t he Director, Shore
Readiness Divisicn (N4b), Of fice ot the Chief of Naval
OperdLiuIl5, Fleet Readiness and Logistics, in coordination with
Commander, Naval InstallatIon::; Command, rev i ew the e-.l{OI tool to
ensure it adheres to l if e-cycle eost-e[fectiveness requireme n ts
in legislation and Federal ilnd 000 criteria for ener'gy lJLojects.
If the tool does not adhere t o theoe requirements , we t-ecommew]
that thp Director, Shore Readiness Division, mod.ify e - ROI so
that only projects tha:: are l if e-cycle cost-effective receive
fur.d::'ng.

     Respo nse:  Concur . The financial benefit calcu l ations
within the Navy eRO! energy investme n t decision tool utilize t.he
same standardized (EPAct 1992 mandated) fermat fer p erfnrming
and documenting Life Cycle Cost Analyses (LCCA) as t he OSD
Energy Conservat.ion I nvestme n t Program (ECIP) in o r der to assess
the long-term cos t -effect i veness of s u bmitted projects .



                       Click to add JPEG file




                                   3                   Enclosu::-e (1)




                                              71
Assistant Deputy Commandant, Installations and Logistics
(Facilities) Comments




                                  DEPARTMENT OF THE NAVV
                            IlEADQUAkTKHS UNITE D STATES !\IAklNE CO llI'S
                                   3000 MARIN E CORl'S PENTAGON
                                     WASIiINGTON, nc 20350·3000
                                                                                      IN '<D'!.V Runl 'ro,

                                                                                      1130 0
                                                                                      LFF-1
                                                                                      MAY 2 0 20 11

       Frem:   Assistant Deputy Commandant, Installations and Logistics
               (Facilities)
       To:     Headquarters Marine Corps, Programs and Resources
               Department (RFR)

       SUbj:   D~DIG DRAFT REPORT, THE DEPARTMENT OF THE NAVY SPENT
               RECOVERY ACT FUNDS ON ?HO'IOVOLTAIC PROJECTS THAT WER=: NOT
               COST-EFFECTIVE, PROJECT NC. D2010-DOOOLH-008 1.0 0 0 , 3MAYli

       Ref:    (a) MeO PIICaQ.ge, Energy and Utilities Management
               (b) United States Marine Corps Expeditionary Snergy
                   Strategy and Implementation Plan, March 2011

       Encl:   (1) AVe I&L (LF) Response to DODIG Draft Report,                    PROJECT
                   NO. D2010-DOOOLH-0081.000, 3MAYll

       1.  Thank you for the opportunity to comment on the subject
                            Click to add JPEG file
       draft report resulting from the DODIG performance audit
       conducted fron November 2009 through May 2011.     The Marine Corps
       has concerns, which are articulated in enclos"..lre (1 ) , regarding
       the va:"idity of the findings.

       2.  The only Marine Corps project reviewed under the subjec-.::
       DODIG proje c t was Pr oject P856-M, which constructed a 1.4
       megawatt photovoltaic system on the cl~sed landfil:" at MCR Camp
       Pendleton.    This office ~ces not fully concur with two of the
       t~ree recommendations Qd~rcsscd to ADC I&L (Pacilities).
       Enclosure (1) provides our detailed response.

        a. Regarding the suffi~iency of the project selection process,
        in the course of selecting and planning Project P356-M, the
        Mar~ne Corps utilized available reports assessing re~ewable
        energy opportunities within the Department of the Navy as we l l
        as an abundance of information published by the Department of
        Energy related to the implement~tion of renew~ble energy
        projects.  While the project package may not reflect this
        effort, the effert was sufficient to determine cost
        effectiveness.  We are revising ref (a) t o better capture t h ose
        elements in project documentation and ~ddress the requirements
        established by ref (b)

        b. Regar~ing the recommendation to initia t e an administrative
        l."evlew and llli t i aL e d~fJL"upr i ate administra::ive ac::ion, this


                                                                             En closu r e (1 1




                                                            72
Subj,   DODIG DRAFT REP8RT, THE DEPARTMENT OF THE NAVY SPENT
        RECOVERY P_CT FUNDS ON PHOTOVOLTAIC PROJECTS THP_T WERE NOT
        COST-EFFECTIVE, PROJECT NO. D2010-DOOOLH-0031 .00 Q, 3MP.Yll


 office strongly n onconcu~s .  As indicated in enclosure (1), the
 DODIG findings are based on an :'ncomplet".e interpretation of
 l eg i sl~ t ion and policies.


3 . The selection of Project P856-M by Marine Corps officials
was in accordance with Federal legislation and DOD policy.
Further tr.e selection was justified in accon]ance with l ife
cycle cos t analysis guidance. T~e effort put forth by personnel
at MCB camp Pen:ileton is tremendously appreciated by the r1arine
Corps . It contributes to the actieveme~t of federally mandated
renewable energy goals and demonstra~es excellence in managing
limited resources.   As stated by the Director Facilities Energy,
Office of the Deputy Under Secretary of Defense (Installations
and Environment) during the DoDI G ou:.brief to ADC I&L
(Facilities), the efforts of Marine Corps Officials t o select
and authorize the Camp Pendleton Phocovoltaic Project were in
line with the intent of the Secretary of Defense.

4.   I request the cpportunity to discuss the concerns presented
in             (I) with ~ODIC officials prior to release of a
                   Click to add JPEG file
                 The POC for this issue ie
                                 e-mail;




                                  A _ M _ EDMONDS
                                  By direction




                                                      En c l osure (1 1




                                           73
                           ASSISTANT DEPUTY COMMANDANT
                    INSTALLATIONS AND LOGISTICS (FACILITIES)
                                   RESPONSE TO:

Department of Defense Office of Inspector General , Draft Report , The
Department of the Navy Spent Recovery Act ~nds on Photovoltaic Projects That
Were Not Cost - Effective, Project No . oe010 - DOOOLH- OOB1 . 000 , 3 May 2011


1.    RZSPONSI!! 'l'O PR.DilUtY !'INDINCl :

PRIMARY FINDING : Marine Corps officials did not consider cost-effectiveness
for Recovery Act PV Projects .

ADC I&L (FACILITIES) RESPONSE : Marine Corps officials took into
consideration monetary factors , as well as other s pecial considerations
required by United States Code Title 10 , Chapter 113 (Energy security) ,
Section 2911 (Energy performance goals and plan for Department of Defense) .
In determining cost- effectiveness , the DODIG report does not take into
consideration non monetary benefits as addressed in NIST Handbook 135 , Life
Cycle Costing Manual for the Federal Energy Management Program, Department of
Commerce, National Institute of Standards and Technology, 1995 edition .
                                Click to add JPEG file
     The only Marine Corps project reviewed under the subject DODIG Report was
     Project P856 - M, which constructed a 1 . 4 megawatt (MW) photovoltaic (PV)
     system on a closed landfill at MeB Camp Pendleton .

     United States Code Title 10, Section 2911 states that " for the purpose of
     developing and irrt=>lementing the energy performance goals" at a minimum,
     the Department of Defense (000) will give special consideration to the
     following :

        Cost effectiveness , cost savings , and net present value of
        al ternati ves .

        The value of diversification of t ypes and sources of energy used .

        The value of the use of renewable energy sources .

        The potential for an action to serve as an incentive for members of the
        armed forces and civilian personnel to reduce energy consumption or
        adopt an improved energy performance measure .

     In addition , Marine corps officials gave consideration to impacts on
     mission execution , real estate and encroachment issues , and environmental
     and cultural resource requirements .



                                              1
                                                                       Enclosure (1)




                                                   74
United States Code Title 42 , Chapter 91 (National Energy Conservation
Policy) , Section 8254 (Establishment and use of life cycle cost methods
and procedUreS) requires the Department of Energy (DOE) to " establish
practical and effective p resent value methods for estimating and comparing
life cycle costs . "

   Guidance for Federal agencies to perform a Life Cycle Cost Analysis
   (LOCAl is provided in Handbook 135 . Per page 11 of the DOOIG Report ,
   Han   ok 135 "provides LCCA criteria for energy projects at Federal
   facilities ." Per page 32 of the DOOlG Report , "Handbook 135 outlines
   the factors officials ~ consider when preparing an LCCA ."

   Per an ~A conducted internally by DOOlG (see Appendix C of DOoIG
   Report) , the conclusion was drawn that Project P856- M was not cost
   effective , thus its selection under the American Recovery and
   Reinvestment Act of 2009 (Recovery Act) was not justified .

However , the DOOIG Report and the LCCA performed by OOOIG for Project
PB56- M do not take into consideration non- monetary benefits articulated to
them by Marine Corps officials and has incorrectly determined that the
term " cost effective" is limit.ed solely to monetary considerations .
Section 4 . 6. 4 . 3 of Handbook 135 addresses " non - monetar y" benefits and
costs .
                      Click to add JPEG file
   Non monetary benefits and costs are " project.- related effects for which
   you have no objective wa y of assiqninq a dollar value ."

   Per Section 4 . 6 . 4 . 3 of Handbook 135, "you can subjectivel y iudqe
   whether or not the non- monetary benefits outweigh the LCC penalty."

   Section 4 . 6. 4 . 3 of Handbook 135 specifically states , " If the decision-
   maker iUdges that the non- monetary benefits of a proiect are greater
   than t.he LCC penalt.y, the project. can be accep ted as cost. effective ."

Of great value to Marine Corps officials was the uni que aspect of this
project in comparison to other potential projects in that PB56- M was
located on the site of the Box Canyon landfill - effectively transformina
unusable land into a site p roducing renewable enera y.

In addit.ion , the validit.y of the LOCA performed int.ernally by DOOIG falls
into question because it does not take into consideration the following :

   Monetary benefits associated with the ownership of renewable energy
   certificates . (Refer to Renewable Energy Requirement Guidance for
   EPACT 2005 and Executive Order 13423 , U. S . Department of Energy , Office
   of Energy Efficiency and Renewable Energy, Federal Energy Management
   Program, dated 2B January 200B) .


                                       2
                                                                    Enclosure (1)




                                                 75
                                                                                          Final Report 

                                                                                           Reference





        Double counting provisions established by the Energy Policy Act of 2005
        for renewable energy generated on- site and consumed by a Federal
        agency .

        Handbook 135 has not been revised to address Section 441 of the Energy
        Independence and Security Act of 2007 which increased allowable s ystem         Revised

        service life from 25 to 40 years . While arguably the panels installed
        by Project P856- M may have a service life of 20 - 25 year~ , the
        supporting infrastructure should last in excess of 40 years . This will
        allow for the potential installation of more efficient panels in the
        future . The DODIG LCCA assumes a life cycle of only 20 years for all
        the infrastructure constructed by the project .

2.    RESPONSE TO   SECO~Y    FINDINGS :

S~NDARY FINDING 1 :   Marine Corps officials did not select and plan cost-
effective PV projects in accordance with the Recovery Act and applicable
energy legislatJon and policies .

ADC I&L (FACILITIES) RESPONSE : Congressional legislation directs the use of
renewable energy in DOD facilities . The selection and planning of project
P856- M by Marine Corps officials was in accordance with the Recovery Act as
well as congressional legislation and DOD policy related to the
                           Click to add JPEG file
implementation of renewable generation projects on a Marine Corps
installation . project P856- M contributes to the achievement of
congressionally mandated renewable energy goals and demonstrates excellence
in managing limited resources .

     congressional legislation directs the use of renewable energy in 000
     facilities :

        Energy Policy Act 2005 (EPAct 2005) :

        o   Defines " renewable energy " as electric energy generated from solar ,
            wind , biomass , landfill gas , ocean (including tidal , wave , current ,
            and thermal) , geothermal , municipal solid waste, or new
            hydroelectric generation capacity achieved from increased efficiency
            or additions of new capacity at an existing hydroelectric project .

        o   Requires the Secretary of ~nergy to ensure that, to the extent
            economically feasible and technically practicable , the following
            amounts of the total electricity consumed by the Federal Government
            come fram renewable energy :

               Not less than 3' in fiscal years 2007 - 2009 .
               Not less than 51 in fiscal years 2010- 2012 .
               Not less than 7 . 5' in fiscal year 2013 and thereafter .



                                           3
                                                                        Enclosure (1)




                                                     76
   o   Provides a bonus to Federal agencieg by allowing them to double
       count renewable energy if it is produced on - site and used at a
       Federal facility .

   National Defense Authorization Act of 2007 :

   o   DOD will produce or procure not less than 25 percent of the total
       quantity of electric energy it consumes within its facilities and in
       its activities during fiscal year 2025 and each fiscal year
       thereafter from renewable energy sources (as defined in section
       203 (b) of EPAct 2005) .

   o   DOD will produce or procure electric energy from renewable energy
       sources whenever the use of such renewable energy sources is
       consistent with the considerations specified in United Sta es Code
       Title 10. Section 2911 .

The selection and planning of Project P856- M by Marine Corps officials was
in accordance with the Recovery Act as well as congressional legislation
and 000 policy related to the implementation of renewable generation
projects on a Marine Corps installation .

   The Recovery Act was passed by congress and signed into law by
                     Click to add JPEG file
   President Obama on 17 February 2009 . The purpose of the $7S7 billion
   Recovery package was to " jump- start the economy to create and save
   jobs . " "Long term inve.stment goals " included "investing in the
   domestic renewable enerq y industry" (source : www . recovery . gov) .

   MemorandUm (Department of Defense Report to Congress on the Military
   Construction (MILCON) and Facilities Sustainment. Restoration , and
   Modernization (FSRM) Expenditure Plans for the American Recovery and
   Reinvestment Act of 2009) dated 23 February 2009 , signed by Deputy
   Under secretary of Defense (Installations & Environment) was sent to
   the Military Departments requesting the submittal o f projects for
   funding consideration .

   o   Input for MlLOON projects was due to DUSD(I&E) by 6 March 2009 .

   o   The DUSD(I&E) ~acilities Energy Directorate was designated as
       responsible to " separately collect projects supporting che Energy
       Conservation Investment Program (ECIP) ."

   In response , Marine Corps officials submitted $71 million in project
   investment under MILCON and $114 million under FSRM to the Assistant
   Secretary of Navy (Installations & Environment) for consideration .

   Project P856- M was submitted by Marine Corps officials as a HILCON
   project . The project cost for P856- M was developed per " Proposal fOI
   Turnkey 1 ; 156 . 7 kWac Photovoltaic System for Box Canyon Marine Corps


                                                                Enclosure (1)




                                              77
   Base Camp Pendleton ." Offered to : San Diego Gas & Electric , Offered by :
   Independent Energy Solutions . Inc . , dated 16 March 2008 .

  Cost effectiveness was given consideration by Marine Corps officials in
  their decision to execute project PBS6- M. Generally speaking , monetary
  factors related to the implementation of PV systems within the
  Southwestern United States are consistent across projects . Based on
  experience with projects developed and submitted under EClP , Marine
  Corps officials recognized the potential return- on- investment
  limitations of P856- M if evaluated strictly on a monetary basis .

   Typically , P856- M would have received consideration under ECIP .
   However , for the following reasons , it was not submitted to the
   DUSD(I&E) Facilities Energy Directorate for consideration :

   o   Per experience related to prior PV projects implemented on Marine
       Corps installations , Marine Corps officials concluded that P856- M
       would not achieve specific return on investment requirements
       established for ECIF .

   o   project scope and cost for P98S - M were well above traditional &CIP
       projects submitted by the Marine Corps . Note : The Marine Corps is
       t ypically onl y allotted S4 - 6 million of EClP funding annuall y, so
                      Click to add JPEG file
       prolects above I MW are generally not developed . PV projects
       executed under EClP are usually much smaller in terms of renewable
       energy capacity and aggregated with quicker payback energy
       conservation measures such as lighting retrofits .

The implementation of Project PB56- M contributes to the achievement of
congressionally mandated renewable energy goals and demonstrates
eMcel1ence in managing limited resources .

  Of great value to Marine corps officials was the unique aspect of this
  project in comparison to other potential pr ojects in that P856- H was
  located on the site of the Box Canyon landfill . The 28 - acre Box canyon
  Landfill is located in the souchwest portion of MeB Camp Pendleton ,
  approMimately 200 feet south of Vandegrift Boulevard and 0 . 5 mile
  northeast of the intersection of Vandegrift Boulevard and Stewart Mesa
  Road . The site contains approMimately 1, 093 , 000 cubic yards of fill
  (waste and cover soils) . The final closure of the landfill was
  completed in February 2003 .

  Although Project P856- M was unlikely to achieve the return on
  investment criteria established for ECIP projects , as provided for in
  section 4 . 6. 4 . 3 of Handbook 135 , Marine Corps officials were well
  within the boundaries of Conqressional leqislation and DOD policy to
  select and execute this project under the MlLCON program as provided
  for in United States Code Title 10 Seccion 2911 .


                                      5
                                                                  Enclosure (1)




                                                78
      o   Section 4 . 6. 4 . 3 of Handbook 135 specifically states , " If the
          decision - maker judges that the non - monetary benefits of a project
          are g reater than the Lee penalty, the pr oject can be accepted as
          cost effective ."

      o   United States Code Title 10 Section 2911 specifically states that
          " for the purpose of developing and implementing the energy
          performance goals . " in addition to cost effectiveness. special
          consideration will be given to the " value of diversification of
          types and sources of energy used" and the " value of the use of
          renewable energy sources ."

      Marine Corps Project P856- M:

      o   Represents the largest PV system on a Marine Corps base - and ranks
          among the largest solar installations in San Diego County .

      o   Consists of 6 , 300 K0235 modules produced locally by Kyocera Solar
          Inc . at their San Diego facility .

      o   Stands on the site of the Box Canyon landfill - effectively
          transforming unusable land into a site p roducing renewable energy .

      a                  Click to add JPEG file
          Went on - line 15 December 2010 . To- date (10 May 2011) , the PV system
          at Box Canyon has produced 978 , 460 kilowatt hour s (kWH) of
          electricity feeding MeB Camp Pendleton ' S electric grid and is
          expected to produce about 2 , 400 megawatt- hours (MWH) annually
          (enough electricity to power 400 average homes) .

SECONDARY FINDING 2 ; ~rine Corps officials were not well-equipped to handle
quick timelines for planning and selecting projects because , at the time of
the Recovery Act ' s implementation the Marine Corps did not have processes for
completing life-cycle cost analyses, processes for planning and selecting all
energy projects , or energy strategies for achieving legislative goals .

AOC I&L (fACILITIES) RESPONSE : In the course of selecting and planning
Project paS6- M, the Marine Corps utilized available reports assessing
renewable energy opportunities within the Department of the Navy as well as
an abundance of information published by OOE related to the implementation of
renewable energy projects . policy and instruction related to the Marine
Corps Facilities Energy and Water Management Program is contained in MOO
PllOOO . 9C which is in the process of being revised to incorporate
requirements directed by the recently published Unites States Marine Corps
Expeditionary Strategy and Implementation Plan .

  The Marine Corps ' Facilities Energy & Water Management Campaign Plan was
  signed by the Commandant in April 2009 . Coordination within the Marine
  Corps was initiated by AOC I&L (Facilities) prior to passage of the
  Recovery Act .

                                         6
                                                                     Enclosure (1)




                                                   79
      Instruction pertaining to section and justification of ECIP projects 1s
      provided for in MeO P11000 . 9C . It should be noted that traditionally the
      Marine corps is only allocated five percent of the annual ECIP
      appropriation . The Recovery Act provided $120 million to ECIP , of which
      the Marine corps received $38 million (32\) .

      Planning related to the selection and justification of renewable energy
      projects on Department of the Navy installation~ including an analysis of
      the benefits and drawbacks of developing specific renewable technologies
      and assessment~ of potential opportunitie~ to utilize renewable sources
      has been documented in the following :

         Report to congress , DOD Renewable Energy Assessment , Final Report, 14
         March 2005 .

         Renewable Energy Technology Review, Department of the Navy , Navy Region
         Southwest - Marine Corps Installations West , April 2007 ,

         Strategic Renewable Energy Action Plan , Department of the Navy, Navy
         Region Southwest - Marine Corps Installations West , April 2007 .

      Information available from DOE ' s National Renewable Energy Laboratory
                              Click to add JPEG file
      identified the Southwest region as a prime area to implement PY generation
      projects within the continental Unites States .

3 .    R!:SPONSE '1'0 R!:Ca-t:mmM:IONS ;


Recomnendation 2 . we recamnend that the Deputy A1Isistant Secretary of. the
Navy for Enerqy, in coordination with the Deputy Chief of Naval Operationa,
Fleet Readiness and Logistics ; the Commander , Naval :Installations command ;
the Director , Naval Facilities Engineering command Enerqy Of.fice ; and the
A1Isistant Deputy Commandant ~or :Installations an~ Logistics (Facilities);
       a . Establish a standard definition of. a shore enerqy project that
           aligns with DoD policy ; an~
       b . Incorporate the definition into Secretary of the Navy e nergy policy .

ADC I&L (LF) Response . Concur . ADC I&L (LF) will coordinate with Deputy
Assistant Secretary of the Navy (Energy) ,

Reccmmendation 4 . We recCEmleDd that the Assistant Deputy co-andant for
Installations and Logistics (Facilities);
      a. Develop comprehensive policy for planning , prioriti%ing , selecting
         and executing cost-effective FSRM and HXLCON shore energy projects
          in accordance with DoD and Federal requirements that i ncludes:
             1 . processes for perfo%mdnq and documenting life-eycle east
                 analyses;
             2 , StanC1ard.ize<1 method.s for estimatinq project costs and energy
                 savi ngs during project planning ; and


                                           7
                                                                     Enclosure (1)




                                                    80
            3. Responsibilities for obtaining incentives for energy projects ,
               guidelines for cla~nq incentives , and justifications for
               saving incentives for future projects .

AD: I&L (LF) Response . Partially concur . In the course of selecting and
planning Project P9S6- M, the Marine Corps utilized available reports
assessing renewable energy opportunities within the Department of the Navy as
well as an abundance of information published by the Department of Energy
related to the implementation of renewable energy projects. AOC I&L
(facilities) is revising ref (a) to better capture those elements in project
documentation and address the requirements established by ref (c) .

      b . Integra te the policy into standard Marine corps processes for
          planning , prioritizing. selecting. and executing rSRM and MILCON
          e nergy proj e cts .

ADC I&L (LF) Response . Concur . Updated policies will be integrated into
processes for planning , prioritizing , selecting and executing fSRM and MILCON
energy projects .

RecoumendatioD 8 . we reccmmend that the Assistant Deputy COlZmandant for
Installa tions and Logistics (Facilities):
      a. Ini tiate an administrative review to identify individuals in the
          Marine corps responsible for disregarding tbe requirements for

                        Click to add JPEG file
          planning and selecting cost-effective projects, wbi ch resulted in
          Recovery Act funds not r ecovered; and

ADC I&L (LF) Response . Strongly Nonconcur . As indicated in enclosure (I) , I
believe the findings are based on an incomplete interpretation of current
legislation and policies . As such , I am requesting the opportunity to
discuss the concerns presented in enclosure (1) with DODIG officials prior to
release of a final report

      b . Initiate as appropriate any administrative actions warranted by t he
          review .

ADC I&L (LF) Response . Strongly Nonconcur . The enclosed discussion
demonstrates that the selection of Project P856- M by Marine Corps officials
was in accoLdance with federal legislation and DOD policy . Further the
selection was justified in accordance with life cycle cost analysis guidance .
The effort put forth by personnel at MCB Camp Pendleton is tremendously
appreciated by the Marine Corps . It contributes to the achievement of
federally mandated renewable energy goals and demonstrates excellence in
managing limited resources .




                                       •                          Enclosure (1)




                                                 81
